<html>
<title> - ENDING MODERN SLAVERY: NOW IS THE TIME</title>
<body><pre>[Senate Hearing 114-790]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 114-790
 
                  ENDING MODERN SLAVERY: NOW IS THE TIME

=======================================================================

                                HEARING



                               BEFORE THE



                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE



                    ONE HUNDRED FOURTEENTH CONGRESS



                             SECOND SESSION



                               __________

                          FEBRUARY 24, 2016

                               __________



       Printed for the use of the Committee on Foreign Relations
       
       
       
       
       
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]      
 
       
       


                   Available via the World Wide Web:
                         http://www.govinfo.gov
                         
                         
                         
                         
                U.S. GOVERNMENT PUBLISHING OFFICE
                   
 30-864 PDF             WASHINGTON : 2018                                
 
 
 
                         
                         


                COMMITTEE ON FOREIGN RELATIONS         

                BOB CORKER, Tennessee, Chairman        
JAMES E. RISCH, Idaho                BENJAMIN L. CARDIN, Maryland
MARCO RUBIO, Florida                 BARBARA BOXER, California
RON JOHNSON, Wisconsin               ROBERT MENENDEZ, New Jersey
JEFF FLAKE, Arizona                  JEANNE SHAHEEN, New Hampshire
CORY GARDNER, Colorado               CHRISTOPHER A. COONS, Delaware
DAVID PERDUE, Georgia                TOM UDALL, New Mexico
JOHNNY ISAKSON, Georgia              CHRISTOPHER MURPHY, Connecticut
RAND PAUL, Kentucky                  TIM KAINE, Virginia
JOHN BARRASSO, Wyoming               EDWARD J. MARKEY, Massachusetts


                  Todd Womack, Staff Director        
            Jessica Lewis, Democratic Staff Director        
                    John Dutton, Chief Clerk        


                              (ii)        

  


                            C O N T E N T S

                              ----------                              
                                                                   Page

Corker, Hon. Bob, U.S. Senator from Tennessee....................     1


Cardin, Hon. Benjamin L., U.S. Senator from Maryland.............     2


McCain, Hon. John, U.S. Senator from Arizona.....................     3


McCain, Cindy, co-chair, Human Trafficking Advisory Council, the 
  McCain Institute, Washington, DC...............................     4

    Prepared statement...........................................     6


Middleberg, Maurice, executive director, Free the Slaves, 
  Washington, DC.................................................     8

    Prepared statement...........................................    10


Chumbow, Evelyn, survivor advocate, College Park, Maryland.......    15

    Prepared statement...........................................    17


Warners, Leah, human trafficking survivor, survivor advocate, 
  Southeastern United States.....................................    18

    Prepared statement...........................................    20



              Additional Material Submitted for the Record

Statement submitted by Hon. Marco Rubio, U.S. Senator from 
  Florida........................................................    41




                             (iii)        

  


                         ENDING MODERN SLAVERY:
                            NOW IS THE TIME

                              ----------                              


                      WEDNESDAY, FEBRUARY 24, 2016

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:30 a.m., in 
Room SD-419, Dirksen Senate Office Building, Hon. Bob Corker, 
chairman of the committee, presiding.
    Present: Senators Corker [presiding], Gardner, Cardin, 
Coons, Kaine, and Markey.
    Also Present: Senator McCain.

             OPENING STATEMENT OF HON. BOB CORKER, 
                  U.S. SENATOR FROM TENNESSEE

    The Chairman. I am going to be very brief in my opening 
comments. I know that Senator McCain is here to introduce, as 
he should, his wife, Cindy. And I know he has other things to 
do.
    So, I just want to briefly say that, earlier this week, I 
had the opportunity to meet with students of three different 
universities in Tennessee, and this issue that we are 
highlighting today, modern slavery and human trafficking, and I 
have not seen an issue that touches young people like this 
issue and their concern for people all across our country, but 
around the world, their move to, when they understand there are 
27 million people in the world today that are in slavery, that 
26 percent of those people are in sexual servitude, and they 
want to do something about it.
    This committee unanimously, last year, voted to pass the 
End Modern Slavery Act. It is a bill that hopefully will be on 
the Senate floor soon. We received an appropriation earlier 
this year of $25 million to begin a worldwide effort that will 
match public and private resources. What we find each year is 
that people come before us looking for incremental help in 
dealing with this issue, and yet we want to address this issue, 
not unlike we did with HIV/AIDS, where we pull together the 
world to end modern slavery.
    Today, we have tremendous advocates here. They will be 
introduced in just a moment. We have two extraordinary women 
that have dealt firsthand with this issue and shown tremendous 
courage. We thank you for being here to share your stories.
    And, with that, I will turn the meeting over to our 
distinguished ranking member and tremendous partner, Ben 
Cardin.

             STATEMENT OF HON. BENJAMIN L. CARDIN, 
                   U.S. SENATOR FROM MARYLAND

    Senator Cardin. Well, thank you, Chairman Corker.
    And I personally want to thank Chairman Corker for his 
passionate leadership on this issue. He has been an incredible 
leader, not just on this committee, but in our country, on 
ending modern slavery. And I thank him for that. Today's 
hearing is just one more chapter in that record.
    I am going to ask consent to put my opening statement in 
the record, because it does express, I think, in more detail, 
some of my priorities in this area.
    But, we are talking about millions of people who are 
trafficked every year, people who are trafficked for sex 
trafficking, young girls who are sold into marriage, 
trafficking that occurs in the labor markets, as we have seen, 
which is outrageous, trafficking that is used by terrorist 
organizations in their recruitment or forcing of their 
ideology. It is modern-day slavery, and we have to do 
everything we can to end this.
    I am proud of the leadership that we have had in the United 
States, the Trafficking in Persons Report is considered to be 
the gold standard. Last year, we confronted a situation that 
the Chairman and I and members of this committee and others 
thought was just trying to politicize the report. We brought a 
major spotlight to that, because we want to make sure we 
maintain the integrity of the Trafficking in Persons Report. 
Whenever a foreign leader visits with me, which is kind of 
regularly, I have the TIP Report in front of me. I was with 
Senator Coons in the southern part of Africa. We raised it. 
Some of the world leaders were surprised at how much attention 
we pay to the Trafficking in Persons Report. They are now 
spending more attention to that Trafficking in Persons Report, 
and we are going to follow up with some of the specific 
recommendations. And we had the presidents of countries that 
are now engaged in this issue. So, it is working.
    It is also nice to have Senator McCain here. Senator 
McCain, I think, is one of the great human rights leaders in 
the United States Senate. While we have him before the Senate 
Foreign Relations Committee, Mr. Chairman, I hope we can ask 
him some questions about his effort as Chairman of the Senate 
Armed Services Committee, trying to steal our committee's 
jurisdiction. So, I hope we will be able to ask some questions 
in that regard. [Laughter.]
    Senator Cardin. But, it is a pleasure to have Senator 
McCain before our committee.
    The Chairman. In order to show proper respect to Senator 
McCain, I am going to ask him, if he would, to introduce Cindy, 
and say to him, as he does, it sure is a lot more peaceful on 
this committee now that you are off of it. [Laughter.]
    The Chairman. And then I will introduce the other witnesses 
after that takes place. But, seriously, we warmly welcome you 
and thank you for your leadership on national security issues, 
in particular.

                STATEMENT OF HON. JOHN McCAIN, 
                   U.S. SENATOR FROM ARIZONA

    Senator McCain. I thank you, Mr. Chairman and Senator 
Cardin. And I must say that it is with nostalgia that I recall 
my wonderful time on this committee, especially being able to 
question the credentials of nominees for ambassadorships around 
the world. [Laughter.]
    Senator McCain. I dearly miss those days. [Laughter.]
    The Chairman. You seemed to like those that had actually 
been to the countries where they were going to be serving. 
[Laughter.]
    The Chairman. More than the ones who had not.
    Senator Cardin. The nominees appreciate that you are not on 
the committee anymore. [Laughter.]
    Senator McCain. Could I congratulate both you and Senator 
Cardin, who work in a bipartisan fashion. Recently, a 
resolution passed this committee, and overwhelmingly in the 
House and Senate, in response to the Korean activity. I think 
we can be so proud of the Magnitsky Act and the effects that it 
has had. And this committee has, in a bipartisan fashion, led 
the Congress and the Nation, and I am very proud of the 
leadership, and especially proud of the partnership that 
Senator Cardin and Senator Corker, neither of whom speak 
English very well, but they have accomplished much. I 
appreciate that. [Laughter.]
    Senator McCain. We have wonderful witnesses here today, and 
I thank you for having this hearing. I will be very, very 
brief, except to say that I am very proud of Cindy McCain's 
work on this issue. She has traveled the world, but she has 
also spent time in our State, a border State, where cross-
border trafficking is still a very, very serious issue. We have 
experts here to talk about it, including Cindy and her great 
work.
    I would just like to point out that all of us have a story, 
and we will hear stories today. There is a story of a young 
woman named Kayla Mueller, Prescott, Arizona. She went to Syria 
on purely humanitarian motivation. She was working in a 
hospital in Aleppo. She was captured by ISIS, was killed 
eventually. And that was after being held hostage under 
terrible conditions. We honor her. We honor her memory. We 
honor her dedication and her humanitarian behavior, which has 
so characterized so many young Americans today who want to 
combat evil and to do humanitarian things throughout the world. 
Kayla Mueller, to me, epitomizes the young women and young men 
in the world that need our protection and need our help and 
need us to eradicate this evil, which, with the increase in 
crises and conflict around the world, as Cindy and the other 
witnesses will testify, is not on the decrease, it is on the 
increase.
    So, I thank you very much, Mr. Chairman, for having this 
hearing. And I am proud of Cindy's work, and I think you will 
find her to be a far more articulate spokesperson on this issue 
than I am.
    Thank you.
    The Chairman. I do not think there is any question about 
that, but we do thank you very much for being here and know 
that you have other business. We thank you for your leadership 
on so many issues and look forward to Cindy's comments in just 
a moment.
    Our second witness is Maurice Middleberg. Mr. Middleberg is 
Executive Director for Free the Slaves, an international NGO 
established to combat human trafficking and slavery around the 
world. Free the Slaves focuses its efforts on identifying at-
risk communities and vulnerable individuals to help them avoid 
being enslaved and to free enslaved individuals.
    We thank you for your efforts and your willingness to be 
with us today.
    Our third witness is Evelyn Chumbow. Was that pronounced 
correctly?
    Ms. Chumbow. Yes, perfect.
    The Chairman. Ms. Chumbow is a survivor advocate who was 
brought to the United States from Cameroon at the age of 9 and 
then forced into servitude. Ms. Chumbow was 17 years old before 
she was able to escape. She was appointed to the United States 
Advisory Council on Human Trafficking by President Obama in 
December 2015.
    And again, thank you so much for being here.
    Our last witness is Leah. Leah, is a human trafficking 
survivor and is an advocate for the major anti-slavery 
organization A-21. We had a number of A-21 representatives in 
Nashville on Monday morning. Inspiring what is happening 
through your organization. For 7 years, she lost her freedom. I 
watched a video last night, by the way, that documented much of 
what you will have to say today. It is very moving. The A-21 
Campaign is a nonprofit that works to fight human trafficking, 
including sexual exploitation and forced slave labor.
    All of your written comments will be entered into the 
record, without objection. I know Cindy has been here many 
times, but if each of you would summarize in about 5 minutes, 
and then there will be questions.
    We thank you all for being here. And, if we could, let us 
just go in the order that you were introduced, and begin with 
Cindy.

STATEMENT OF CINDY McCAIN, CO-CHAIR, HUMAN TRAFFICKING ADVISORY 
        COUNCIL, THE McCAIN INSTITUTE, WASHINGTON, D.C.

    Ms. McCain. Thank you, Mr. Chairman. Senator Corker and 
Senator Cardin, I really appreciate you offering me the 
opportunity to be here and to talk on an issue that is 
obviously very close to my heart.
    Most importantly, I am honored to be here because it is the 
day before ENDIT, the ENDIT day. And that brings to light so 
many facets of human trafficking that are all too often not 
understood.
    But, first I would like to commend the committee for 
focusing attention on this issue, and you, Mr. Chairman, for 
your leadership on this topic and for your authorship of the 
End Modern Slavery Initiative Act, along with Senator Menendez. 
I look forward to seeing its passage and its implementation.
    I am also honored to testify alongside Mr. Maurice 
Middleberg, from Free the Slaves. I have followed Mr. 
Middleberg, and I have watched what you do. And, on behalf of 
the victims around the world, thank you for what you do. And 
our other members, thank you. I am very honored to be here at 
the same table as you all.
    As you know, human trafficking is a pervasive problem 
touching every State in our Nation and every country around the 
world, but it is such an insidious and horrible act, and 
underreported. Accurate statistics on the number of victims and 
traffickers are very difficult to produce. Sex trafficking of 
minors is particularly hard to estimate, as the victims are 
often abused, traumatized, and hurt at such a young age, and 
they do not recognize themselves as victims. Their stories and 
problems are tragic and complicated. And we as a Nation owe our 
children a collective effort to end this travesty. We need to 
recognize that we have a global problem that calls for a global 
solution.
    While precise data on the number of victims of trafficking 
is difficult to come by, we know that the numbers are way too 
high. The number of adult women as well as young boys and 
little girls whose childhoods and very lives are being lost to 
trafficking every day is heartbreaking.
    The anecdotal stories of survivors and victims tell us that 
there are individual operations and very well-orchestrated and 
well-financed trafficking networks worldwide. I firmly believe 
that human trafficking is directly tied to drug and gun 
trafficking, and ultimately to the illicit terrorist 
organizations, like Boko Haram and ISIS.
    The McCain Institute has sponsored targeted research 
projects that tell us that an alarming high percentage of 
children passing through our child welfare and foster care 
systems have been trafficked. Vulnerable populations, such as 
homeless and LGBT youth, are also shown to be at a much higher 
risk of trafficking. The National Center for Missing and 
Exploited Children reported that 68 percent of these likely 
victims were in the care of social services or foster care at 
one time.
    The International Labor Organization estimates that of 
nearly 21 million victims of forced labor worldwide, 11.4 
million are women and children. Globally, an estimated 2 
million people are exploited by state actors or rebel groups, 
and 19 million are exploited by individuals. 4.5 million of 
these people are victims of forced sexual exploitation by 
individuals and organizations. It is estimated that forced 
labor generates $150 billion annually in illegal profits to 
traffickers worldwide.
    A December 2012 UNODC report identified traffic victims 
originating in 136 countries. These numbers are staggering. 
While these numbers are overwhelming, I am encouraged by the 
increase in efforts to combat human trafficking globally. In 
the last few years, UNIAP has found that 61 countries have 
passed national laws against trafficking, and 90 percent of 
these laws have been enacted in the last 5 years. The potential 
of the End Modern Slavery Initiative to laser focus known 
strategies to find its victims, break up trafficking networks, 
and tactically organize the many people who deeply care about 
this issue into more effective action is unlimited. It is time 
we work together, though. It is time we stop this heinous crime 
against humanity.
    Congress mandates reports on human trafficking. One of the 
most well-known, of course, is the State Department's annual 
TIP Report, as you mentioned. The report was mandated to assess 
each country's progress in achieving minimum standards for 
fighting trafficking. Countries are ranked in tiers from 1 to 
4, with tier tier 1 being the best. The report was designed to 
be an honest assessment of each government's commitment to 
fighting trafficking in both source and destination countries. 
The TIP Report should be an accurate assessment, and countries 
that do not meet the minimum standard for fighting trafficking 
should face other penalties until they take it seriously and 
they improve.
    It seems that several countries with whom we had other 
prevailing interests moved up on the list. The rankings 
improved, where there was really no real action or reducing of 
trafficking. The report should be factual and not swayed by 
outside interests.
    The fight against trafficking has not played a large enough 
role in the President's rhetoric in Asia. U.S. Government 
officials recently met with ASEAN leaders in Los Angeles. I 
hope these countries advance on the TIP Report rankings, 
because they have made concrete advances in the fight against 
trafficking, and not because of outside political 
considerations. It is time the measuring tools used to fight 
trafficking internationally are used fairly and honestly.
    There are increasing numbers of people dedicating their 
lives to fighting trafficking every day. And some NGOs are 
really outstanding at this. The McCain Institute has had the 
honor of partnering with THORN Digital Defenders of Children to 
help get their innovative spotlight tool into the hands of over 
2,000 police departments in 49 States.
    Mr. Chairman, I would like to present the rest of this for 
the record, but if I may say, I just recently returned from 
Turkey and Greece, both. And I was staggered to see what I saw 
anyway, but, most importantly, I, myself, watched trafficking 
happening. So, with your consideration, I would hope that this 
committee would focus somewhat on the women and children that 
are coming across the waters from Izmir into Lesbos on that.
    And thank you for having me today.
    [Ms. McCain's prepared statement follows:]


                   Prepared Statement of Cindy McCain

    Chairman Corker and Ranking Member Cardin, it is an honor to be 
here today to testify before the Senate Foreign Relations Committee on 
the important issue of human trafficking. I am particularly pleased to 
join you on the eve of ENDIT day and appreciate the increased attention 
this committee is bringing to ending the many facets of human 
trafficking.
    First, I'd like to commend the committee for focusing attention on 
this issue, and you, Mr. Chairman, for your leadership on this topic 
and for your authorship of the End Modern Slavery Initiative Act along 
with Senator Menendez. I look forward to seeing its passage and 
implementation.
    I am also honored to be testifying alongside Mr. Maurice Middleberg 
from Free the Slaves, whose remarkable efforts to combat trafficking on 
the international level are nothing short of inspiring.
    Human Trafficking is a pervasive problem, touching every state in 
our nation and every country around the world. Because it is such an 
insidious, horrible and under reported crime, accurate statistics on 
the number of victims and traffickers are very difficult to produce. 
Sex trafficking of minors is particularly hard to estimate as the 
victims are often abused and traumatized at such a young age that they 
don't recognize themselves as victims. Their stories and problems are 
tragic and complicated and we as a nation owe our children our 
collective efforts to end this travesty. We need to recognize that we 
have a global problem that calls for a global solution.
    While precise data on the number of victims of trafficking is 
difficult to come by, we know that the numbers are way too high. The 
number of adult women, as well as young boys and girls whose childhoods 
and very lives are being lost to trafficking everyday, is 
heartbreaking. The anecdotal stories of survivors and victims tell us 
that there are individual operations, and very well orchestrated, well 
financed trafficking networks worldwide. I firmly believe that human 
trafficking is directly tied to drug and gun trafficking and ultimately 
to illicit terrorist organizations like Boko Haram and ISIS.
    The McCain Institute has sponsored targeted research projects that 
tell us that an alarmingly high percentage of children passing through 
our child welfare and foster care systems have been trafficked. 
Vulnerable populations, such as homeless and LGBT youth, are also shown 
to be at a much higher risk for trafficking. The National Center for 
Missing and Exploited Children reported that 68% of these likely 
victims were in the care of social services or the foster care system.
    The International Labor Organization estimates that of the nearly 
21 million victims of forced labor worldwide, 11.4 million are women 
and children. Globally, an estimated 2 million people are exploited by 
State actors or rebel groups, and 19 million people are exploited by 
individuals. 4.5 million people are victims of forced sexual 
exploitation by individuals and enterprises. It is estimated that 
forced labor generates $150 billion annually in illegal profits to 
traffickers worldwide. A December 2012 UNODC report identified 
trafficked victims originating in 136 countries, these numbers are 
staggering.
    While these numbers are overwhelming, I am encouraged by the 
increase in efforts to combat human trafficking globally in the last 
few years. UNIAP has found that 61 countries have passed national laws 
against trafficking and 90% of these laws have been enacted in the last 
five years. The potential of the End Modern Slavery Initiative to laser 
focus known strategies to find victims, break up trafficking networks 
and tactically organize the many people who care deeply about this 
issue into more effective action is unlimited. It is time we work 
together to stop this heinous crime against humanity.
    Congress mandates reports on human trafficking. One of the most 
well known is the State Department's annual Trafficking in Persons 
(TIP) Report. This report was mandated to assess each country's 
progress in achieving minimum standards for fighting trafficking. 
Countries are ranked in Tiers from 1-4, with the Tier 1 being the best. 
The report was designed to be an honest assessment of each government's 
commitment to fighting trafficking in both source and destination 
countries. The TIP report should be an accurate assessment and 
countries that do not meet the minimum standard for fighting 
trafficking should face other penalties until they take it seriously 
and improve. It seems that several countries, with whom we had other 
prevailing interests, moved up in their rankings without real action on 
reducing trafficking. The report should be factual and not swayed by 
outside interests.
    The fight against trafficking has not played a large enough role in 
the President's rhetoric toward Asia. US Government officials recently 
met with ASEAN leaders in Los Angeles. I hope that these countries 
advance on the TIP report rankings because they have made concrete 
advances in the fight against trafficking and not because of outside 
political considerations. It's time that the measuring tools used to 
fight trafficking internationally are used fairly and honestly without 
regard to trade or other factors.
    There are increasing numbers of people dedicating their lives to 
fighting trafficking every day and some NGO's that do outstanding work. 
The McCain Institute has had the honor of partnering with THORN, 
Digital Defenders of Children, to help get their innovative Spotlight 
tool into the hands of over 2,000 police departments in 49 states. 
THORN's work on the pervasive use of the internet to buy and sell human 
beings for sex, using the brightest minds in technology to disrupt 
trafficking networks, and save victims one at a time is making a 
difference. The global battle against human trafficking has many 
shifting fronts and there are a variety of weapons, like the Spotlight 
tool, available to combat it.
    I recently traveled to both Greece and Turkey with the 
International Rescue Committee, and I was stunned by the horrific 
conditions that refugees have to endure. This desperate situation is a 
breeding ground for traffickers. Vulnerable refugees are lured by the 
promise of safe passage to a new country, before being subjected to a 
dangerous transport in harrowing conditions. The wave of refugees 
coming from Syria is placing many vulnerable people at risk to be 
trafficked. Young girls and boys are traveling by themselves, ahead of 
their families and arriving on shore alone. Children are being 
trafficked out of camps, where traffickers and smugglers prey on 
vulnerable children and desperate families. We are at risk of losing an 
entire generation if we do not defend those who cannot defend 
themselves.
    Human Trafficking is not just an international issue and we as a 
country need to address it in our own states and communities. Through 
the efforts of the Arizona Human Trafficking Council, which I co-chair, 
we have been able to strengthen the laws, giving victims better 
services and protections and increase penalties against traffickers and 
buyers, but our fight is far from over. Once we protect the most 
vulnerable among us in our nation, we can become a global leader in the 
fight to protect those that cannot protect themselves.
    Mr. Chairman, I again congratulate you on your dedication to this 
issue. It is an honor to work with you in the fight against all forms 
of human trafficking. Thank you for allowing me to speak to the 
committee today. I look forward to any questions you may have.


    The Chairman. Thank you so much. Thanks for your leadership 
on this issue and for pointing out the ENDIT movement. Annie 
Brown is here, who leads that effort. She is sitting behind 
you. But, to be honest, we would not be pursuing this had that 
awareness not taken place. And tomorrow is ENDIT Day. The 
awareness catapulted all of us into action. Anyway, thank you 
for mentioning that and what is happening in Greece.
    Mr. Middleberg.

 STATEMENT OF MAURICE MIDDLEBERG, EXECUTIVE DIRECTOR, FREE THE 
                    SLAVES, WASHINGTON, D.C.

    Mr. Middleberg. Thank you, Mr. Chairman.
    Chairman Corker, Ranking Member Cardin, members of the 
committee, thank you for the opportunity to appear before you 
today and share the views of Free the Slaves. We are grateful 
for your outstanding leadership on this issue.
    I was asked to address what we experience as the central 
obstacles to reducing human trafficking and make policy 
recommendations accordingly. The brief answer is that we view 
the small scale of the global response to trafficking and 
inconsistent political support as the core obstacles. We have 
specific recommendations for Congress that address resource 
levels, resource allocation, the roles of USAID and the 
multilateral development banks, consistency in our diplomacy, 
and investing in research and evaluation.
    The focus on scale responds to the substantial progress of 
potential for radical reductions in slavery. While fully 
acknowledging the dreadful reality of slavery, my message today 
is actually one of hope and optimism. We now have the potential 
to achieve radical reductions in slavery if the Congress and 
the next President act boldly.
    A bit of context, if I might. The early phase of the anti-
slavery movement was dedicated to alerting the world that 
slavery exists. That goal has been largely achieved, and I am 
proud of the role that Free the Slaves played in that 
awakening. The second phase of the anti-slavery movement 
involved the search for solutions. Three mutually reinforcing 
solutions to the problem of slavery have evolved. The supply-
chain approach focuses on choking off the demand for slavery-
tainted goods in international trade. The criminal justice 
approach looks at slavery through the prism of investigation, 
arrest, and prosecution, seeking to end impunity for predators. 
The third approach, which is the strategy pioneered by Free the 
Slaves, focuses primarily on reducing the supply of highly 
vulnerable labors in high-risk communities.
    Slavery is very disproportionally concentrated in the 
impoverished rural communities of South and Southeast Asia and 
West and Central Africa. Over the past 16 years, we have 
developed and refined a community-based abolition model that 
replaces vulnerabilities with assets so communities become 
highly resistant to slavery and trafficking. We know that the 
Free the Slaves community-based abolition model is effective. 
Our work has led to the liberation of well over 11,000 slaves. 
While the 2015 data are still being compiled, I can share that, 
in 2014, our collaboration with our local partners reached 
almost 2,000 villages, where more than 82,500 people were 
educated to protect themselves from trafficking. Almost 1300 
government officials were trained on how to fight slavery. The 
collaboration with our partners led to the arrest of 163 
alleged traffickers and slaveholders. We did this on a budget 
of $3.2 million. An independent evaluation of our program in 
the Congo concluded that the results clearly demonstrate the 
project led to increased community resistance to slavery. In 
short, the anti-slavery movement has evolved a three-pronged 
approach grounded in a substantial body of experience and 
evidence.
    The most important barrier to progress against slavery is 
the diminutive scale of the response. As Mrs. McCain pointed 
out, the ILO estimates that traffickers and slaveholders are 
pocketing $150 billion per year. The resources to fight slavery 
are a tiny fraction of the benefits to traffickers. The anti-
slavery movement is fighting a raging elephant with a popgun. 
We have the experience and the knowledge to make a difference, 
but not the resources. This is a great tragedy and deeply 
frustrating for my staff, our partners, and me. We are holding 
a slavery vaccine that we cannot deploy.
    The resource gap reflects inconsistent political support. 
In some countries, leaders deny that a problem exists or 
deliberately turn a blind eye. While no one openly supports 
slavery, sustained, intense political support is needed that 
does not flinch when competing priorities emerge.
    The time has come for the third phase of the anti-slavery 
movement, which must focus on going to scale. We, therefore, 
propose the following policy agenda:
    Dramatically increase resources. Only a qualitative leap in 
available resources will allow for the necessary scaling-up. 
Investing 2 cents--just 2 cents--in fighting slavery for every 
dollar the traffickers put in their pockets would be a huge 
gain for the anti-slavery movement.
    Invest consistently and wisely. Invest in the countries 
where slavery is most prevalent. Stay there over time. And 
enact a comprehensive approach.
    Fully implement the USAID Counter Trafficking in Persons 
policy. We applaud the policy, but it is difficult to 
understand exactly what has occurred, in terms of its 
implementation. We suggest this committee would be well served 
to require regular publicly available reporting from USAID on 
the implementation of the CTIP policy. We bring to the 
attention of the committee that USAID issued one RFA on human 
trafficking in 2015 and has issued two RFIs in 2016. Human 
trafficking is not included in USAID's 2016 mission competitive 
forecast, as posted on February 8th.
    Leverage the resources of the multilateral development 
banks. Almost by definition, development banks are supporting 
large-scale programs that reach communities where slavery is 
prevalent. However, they neither see nor act upon slavery in 
their midst, which is a huge missed opportunity. To our 
knowledge, the reduction is not even on the agenda of the 
multilateral development banks. At a modest cost, poverty 
alleviation programs could integrate an anti-slavery component 
so they could detect slavery and know how to respond.
    Consistently include slavery on the agenda at the highest 
levels of diplomatic discourse. Everyone expects the TIP 
Ambassador to address the trafficking issue in dialogue with 
foreign governments. It is quite another thing if, 
consistently, the Secretary of State and the President would 
include this on their dialogue at the highest levels. I join 
Mrs. McCain in saying that an unimpeachable Trafficking in 
Persons Report should undergird diplomatic efforts. And the 
JTIP office should be ensconced in a structure and culture that 
is fully supportive of its congressionally mandated mission.
    Lastly, invest in context-specific research to guide policy 
and program design. Good policies and programs depend upon 
research that elucidates the magnitude and dynamics of slavery 
in specific context. Radical reductions in slavery are possible 
of these eminently feasible measures are adopted. The next 
President of the United States will have the opportunity to 
become the great emancipator of the 21st century by asserting 
U.S. leadership and galvanizing global action against slavery. 
This committee could help pave the path for the next President.
    Thank you very much.
    [Mr. Middleberg's prepared statement follows:]


              Prepared Statement of Maurice I. Middleberg

    Mr. Chairman, Ranking Member Cardin, members of the Committee, 
thank you for the opportunity to appear before the Committee and share 
the views of Free the Slaves. I would like to take this opportunity 
express our gratitude to Senator Coker and Senator Cardin for their 
outstanding leadership and commitment to addressing human trafficking. 
It is very heartening to know that the leaders of this Committee, as 
well as other members, have devoted strenuous effort to ensuring the 
United States is the leader in the global effort to address the tragedy 
of modern slavery.
    I returned from India on Sunday, where Free the Slaves has an 
extensive program. Over the last sixteen years, Free the Slaves has 
implemented anti-trafficking programs in eight countries, including our 
current programs in the Democratic Republic of the Congo, Ghana, Haiti, 
India and Nepal.
    Human trafficking, which is slavery, inflicts a vast toll of human 
suffering. At Free the Slaves, we are daily witness to the ruthless 
exploitation of slavery: girls and women victimized by sex trafficking; 
little boys on fishing boats; young girls trapped as household 
servants; women breaking rocks by hand in a stone quarry; men sent down 
primitive mine shafts in search of gold and the coltan that ends up in 
our cell phones; and, entire families locked up in brick kilns. I have 
seen all of these with my own eyes and know the devastation wreaked on 
individuals, families and communities.
    While acknowledging that dreadful reality, my message today is one 
of hope and optimism. I believe that we now have the potential to 
achieve radical reductions in slavery if the Congress and the next 
President act boldly. The anti-slavery movement has galvanized global 
acknowledgment of the persistence of slavery. Three complementary 
approaches to eradicating slavery have evolved, with substantial gains 
in experience and evidence, though there is still much to be learned. 
The Congress and the next President must now focus on scaling up 
approaches pioneered by the anti-slavery organizations so that the 
effort to eradicate slavery is commensurate with the magnitude of the 
problem.
    We have specific recommendations for Congress on which I will 
elaborate. These include dramatically increasing resources, investing 
strategically and consistently, fully implementing the USAID C-TIP 
policy, leveraging the resources of the multilateral development banks, 
consistency in our diplomacy and investing in research and evaluation.
    The early phase of the modern anti-slavery movement was dedicated 
to sounding the alarm and alerting the world that the ancient curse of 
slavery persisted, notwithstanding formal legal abolition in most of 
the world. That goal has been largely accomplished, with widespread 
acknowledgment that slavery exists. I am proud to say that Free the 
Slaves played a critical role in this global awakening.
    In the second phase of the anti-slavery movement, three 
complementary, mutually reinforcing approaches have emerged. These are 
the supply chain approach, the criminal justice approach and the 
community-based approach. While organizations tend to specialize, many, 
such as Free the Slaves, implement a combined approach.
    The goal of the supply chain approach is to choke off the demand 
for slavery-tainted goods. It focuses primarily on the links within 
international trade, tracing slavery-tainted goods from producer to 
retailer to consumer. It relies largely, though not exclusively, on 
name and shame tactics and evolving business norms that make it 
untenable for complicit or negligent businesses to sell goods made by 
slaves. The recent exposition of slavery in the fishing industry is a 
good example of this approach. We commend the Congress and the 
Administration for closing a legal loophole that allowed such behavior 
to go unregulated.
    The criminal justice approach primarily looks at slavery through 
the prism of investigation, arrest and prosecution. Slavery is a crime 
in every nation on earth. In practice, however, the risks to 
slaveholders and traffickers are negligible while the rewards are high. 
Only a tiny fraction of criminals are ever brought to justice. The goal 
of the criminal justice approach is to end impunity for predators and 
create disincentives through swift, certain and severe punishment. This 
approach is often accompanied by hotlines that allow for reporting of 
suspected crimes and trigger support for victims, as well as safe 
harbor statutes that exempt slavery victims from prosecution for crimes 
committed under the coercion of slavery.
    The third approach, which is the primary strategy of Free the 
Slaves, focuses on eradicating slavery at its source by dramatically 
reducing the supply of highly vulnerable laborers on whom traffickers 
prey. Our Community Based Abolition Model is based on a simple and 
irrefutable premise: Slavery cannot be meaningfully addressed without 
empowering the people and communities preyed upon by traffickers. 
Demand reduction and law enforcement are critical. But the necessary 
third leg of the proverbial stool is ensuring that potential victims 
and survivors can aggressively assert their right to be free. Policies 
and strategies that do not place at-risk communities at the center of 
their own struggle to live free will fail.
    Moreover, the communities at risk have clear markers. Slavery is 
not randomly distributed. Slavery stems from specific vulnerabilities 
in identifiable, high-risk communities. Its victims come very 
disproportionately from the hamlets and villages of south and southeast 
Asia and west and central Africa. These communities are typically 
rural, impoverished and made up of stigmatized and marginalized groups, 
compounded by severe gender inequities. They are characterized by low 
understanding of their legal rights, weakness or absence of protective 
community organizations, deficits of legal protection, and poor access 
to basic social services. Understanding the root causes of slavery also 
provides the path to its eradication.
    I can best illustrate this point by recounting an experience from 
India. My colleagues and I entered a tiny hamlet in northern India. The 
villagers were members of a low caste group. The dwellings were made of 
cow dung, mud and thatch and had dirt floors. Running water and 
sanitation were unknown. There was no school for the children and 
almost no access to health care. Their meager possessions consisted of 
a few tools, some hand-made cots, some chickens and a water buffalo.
    Every member of the community supposedly owed debts to the landlord 
on whose property they lived. The typical path to slavery is that an 
impoverished family encounters a moment of crisis, most often illness 
in the family. Debts are incurred to pay for health care or other 
emergency needs. In the absence of cash, the creditor demands free 
labor. Lies, ruses, coercion and violence are used to hold people on 
the farm, in the mine or in a factory. The entire family is held liable 
for the debt, which is passed down from one generation to the next. 
Children grow up knowing nothing but enslavement.
    To speak to the people in the community, we were obliged to hide in 
the nearby forest. We were told that the villagers would be beaten if 
the landlord or his agents saw them speaking to us. One man said to me, 
``My father was a slave. I was born a slave. I don't want to be a slave 
anymore.'' This was a slave village.
    Predators will always be able to exploit villages such as the one I 
described unless the underlying vulnerabilities are addressed. Over the 
past sixteen years, we have developed and refined a Community Based 
Abolition Model that replaces vulnerabilities with assets so that 
communities become highly resistant to slavery and trafficking.
    The first essential step is building the capacity of local agencies 
and organizations to protect at risk communities. Our experience is 
that there are usually dedicated organizations that have intimate 
knowledge of the communities and close ties to the population. However, 
they are invariably under-funded and need training, technical 
assistance and organizational development. Hence, Free the Slaves 
always partners with local organizations to build sustained local 
capacity to fight slavery.
    The Free the Slaves Community Based Abolition Model is built on 
four mutually reinforcing pillars that address the core vulnerabilities 
that underlie slavery: educating and mobilizing vulnerable communities, 
enhancing legal protections, increasing access to essential services 
and liberating and reintegrating slavery survivors. All the work is 
carried out with and through local partners who understand the context 
and are trusted in the communities.


 1. Educating and mobilizing vulnerable communities: Slavery stems in 
        part from gaps in knowledge and unchallenged assumptions about 
        social norms. Lack of understanding of rights under law leaves 
        people open to exploitation; e.g., in India, debt bondage is 
        often accepted as an obligation without understanding it is 
        illegal and a crime. In Nepal, insufficient education about 
        safe migration strategies and tactics leaves people open to the 
        manipulations of sex and labor traffickers. Engrained attitudes 
        and norms about caste leave ancient social hierarchies in 
        place, which are then used to hold workers in subservience. 
        Gender discrimination facilitates the exploitation of women and 
        girls, including trafficking. These knowledge, attitude and 
        behavior gaps are compounded by the absence or weakness of 
        community-based organizations that serve to protect the 
        community from exploiters and predators.
          Accordingly, the first pillar of the Free the Slaves model is 
        to engage highly vulnerable communities in participatory 
        learning, so that knowledge is gained, attitudes shift and new, 
        protective behaviors emerge. This is accompanied by the 
        development of anti-slavery committees that serve as a 
        neighborhood watch--a trained and organized group that 
        organizes the community, monitors risks, advises community 
        members and serves as the community's advocate with police and 
        other government authorities.
          This process of educating and mobilizing communities can be 
        enormously powerful and was perhaps best captured by the man in 
        a rural Haitian village who said, ``We were in the dark, now we 
        are in the light.''

 2. Enhancing legal protections: The persistence of slavery reflects a 
        failure of the rule of law, including weak penalties for the 
        crime, denial of access to basic civil rights and protections 
        for women and discriminatory access to entitlement programs, 
        whether for prevention or as restitution for survivors.
          In response, Free the Slaves and its partners mobilize 
        advocacy with government authorities and build the capacity of 
        the responsible government agencies to undertake their 
        responsibilities. We work with coalitions of anti-slavery and 
        human rights organizations to strengthen law and law 
        enforcement. For example, we support the Alliance Against 
        Trafficking in Women and Children in Nepal (AATWIN), Aba Sistem 
        Restavek (Down with Child Slavery) in Haiti and catalyzed the 
        creation of an advocacy coalition, COSCAE, in eastern Congo.
          We encourage the community anti-slavery committees to be 
        vigorous advocates with local governments, demanding law 
        enforcement and creating a political voice for bonded laborers 
        and other trafficking victims. This is often a huge step for 
        communities that have been historically alienated from their 
        own local governments.
          We support our partners in training police and other 
        government officials, so that they are better able to enforce 
        the law. We also train journalists on slavery, so that their 
        reporting can cast a spotlight on neglect and complicity by 
        local authorities.

 3. Increasing access to basic social and economic services: While 
        poverty alone does not explain slavery, the conditions of 
        poverty render households more vulnerable to predators. 
        Children who are out of school are more likely to end up in 
        slavery. Families that lack access to basic, affordable health 
        care will experience a financial crisis coping with illness. 
        Loan sharks exploit the absence of legitimate sources of credit 
        and put families in debt bondage. In the absence of even very 
        modest savings, income generation alternatives or social safety 
        nets, families can be thrown into crisis by the inevitable 
        vicissitudes of life. Free the Slaves and its partners help 
        connect vulnerable communities and families to these core 
        services of schooling, health, credit and income generation. 
        Doing so reduces the risk of trafficking and enslavement.

 4. Liberating and reintegrating slaves: The process of community 
        empowerment leads to the rescue, liberation and reintegration 
        of those in slavery. As partners work with communities and 
        communities become emboldened, cases of slavery, whether of 
        individuals or groups, are uncovered. This sets up a chain of 
        events leading to self-liberation through community resistance, 
        appeals to government authorities or raids that free slaves 
        from work places and brothels. Because resistance has developed 
        at the community level, the syndrome of replacing liberated 
        slaves with the newly enslaved is avoided. Hence, we believe 
        that the appropriate focus for planning and measurement is the 
        community.
          As liberation occurs, Free the Slaves and its partners work 
        with communities and other service providers to ensure that 
        slavery survivors receive the support they need to reclaim 
        lives of freedom and become fully reintegrated into their 
        communities and families. For example, we support a shelter in 
        India that provides care for women and girls victimized by sex 
        trafficking and a self-help network of survivors in Nepal.
          The liberation process also leads to legal action against 
        perpetrators, including arrests, convictions and civil action 
        to compensate victims.


    The triumphs of survivors are inspiring. I think of people like 
Ravi Kumar in India, who was born a bonded laborer and is now a lawyer 
advocating for the rights of other survivors.
    We know the Free the Slaves Community-Based Abolition Model is 
effective. Our work has led to the liberation of well over 11,000 
slaves. The 2015 data are still being compiled. In 2014, our 
collaboration with partners reached 1,977 villages, where more than 
82,500 people were educated to protect themselves and their families 
from traffickers. Almost 1,300 government officials were trained on how 
to fight slavery. The collaboration with partners led to the arrest of 
163 alleged traffickers and slaveholders. We did this on a budget of 
about $3.2 million.
    An independent evaluation of our program in the Democratic Republic 
of the Congo, which was funded in part by the State Department 
Trafficking in Person Office (J/TIP) concluded, ``(The) results clearly 
demonstrate that the project led to increased community-led resistance 
to slavery in eastern DR Congo mining zones.''
    We take great pride in what has been accomplished with the 
resources available to us.
    The power of the Community Based Abolition Model was crystallized 
for me when I visited the village of Sakdouri in northern India. 
Sakdouri is a village where 52 men, women and children had been rescued 
from slavery in a brick-making factory. One year later, the villagers 
were earning a living from farming, children were going to school, they 
were getting health care and new homes had been built. They said, ``We 
know what happened to us and why. We know how to protect ourselves. No 
one will ever make slaves of us again.'' They were going to surrounding 
villages and educating others about how to protect themselves.
    When we got up to leave, the villagers said, ``No, you can't leave 
yet, we have to sing you our freedom song.'' So they took out their 
instruments and here is what they sang, ``We are not afraid. We do not 
fear sticks or guns or slave owners. We know our rights. We keep our 
rights. We will achieve our destiny.''
    Ladies and gentlemen, this is what we seek--to have every village 
and neighborhood afflicted by slavery rise up and sing its own song of 
freedom.
    The anti-slavery movement has now accumulated a substantial body of 
experience and evidence as to how to fight slavery. Eliminate demand 
for slave made goods. Make the perpetration of slavery a high-risk 
business. Cut off the supply of highly vulnerable workers in at-risk 
communities. Support survivors.
    There is, of course, much more to be learned and the movement would 
benefit from additional investments in research. But the foundation has 
been laid for effective action against slavery.
    The most important barrier to progress against slavery is the 
diminutive scale of the response to a great global crime against 
humanity. Without entering into the fruitless debate about the exact 
number of slaves in the world, every estimate points to tens of 
millions affected. We frequently see entire villages and hamlets that 
are in thrall to slaveholders.
    According to the International Labor Organization, traffickers and 
slaveholders are pocketing a $150 billion per year from their 
exploitation of people.
    It must be candidly acknowledged that the scale of the response to 
slavery has been a tiny fraction of the benefits to traffickers. The 
anti-slavery movement is fighting a raging elephant with a popgun. We 
have the experience and the knowledge to make a difference, but not the 
resources or political support to deploy our tools and methods. This is 
a great tragedy and deeply frustrating for my staff, our partners and 
me. We are holding a vaccine that could immunize villages against 
slavery but cannot deploy it.
    The time has come for the third phase of the anti-slavery movement, 
which is going to scale. We must match the nobility of our intentions 
and words with the actions and resources that will change the lives of 
millions.
    With that in mind, we propose the following policy agenda for the 
Foreign Relations:


   Dramatically increase resources: There is no escaping the fact that 
        only a qualitative leap in available resources will allow for 
        the necessary scaling up. Investing two cents--just two 
        cents!--in fighting slavery for every dollar that the 
        traffickers put in their pockets would be a huge gain in the 
        resources to support the organizations fighting slavery. This 
        would give heart to the afflicted communities and instill fear 
        in the traffickers. The End Modern Slavery Initiative would be 
        a very strong beginning down this path of increased commitment.

   Invest consistently and wisely: There is no quick fix to slavery. 
        It will require tenacity. Funds should be allocated 
        strategically and over the long term in the countries most 
        afflicted by slavery. The programs should sustain support for a 
        comprehensive approach that combines supply chain, criminal 
        justice and community-based strategies.

   Fully implement the USAID Counter-Trafficking in Persons Policy: We 
        applaud USAID's C-TIP policy. However, it is hard to obtain 
        information on the implementation of this polciy. We suggest 
        that this Committee would be well served to require regular, 
        publically available reporting by USAID on the implementation 
        of the C-TIP policy. We bring to the attention of the Committee 
        that USAID issued one RFA on human trafficking in 2015 and has 
        issued two RFIs in 2016; human trafficking is not included in 
        USAID's 2016 Mission Competitive Forecast, posted February 8th.

   Leverage the resources of the multilateral development banks: 
        Almost by definition, the development banks are supporting 
        large-scale programs that reach into the communities where 
        slavery is prevalent. However, they neither see nor act upon 
        the slavery in their midst, which is a huge missed opportunity. 
        To our knowledge, slavery reduction is not even on the agenda 
        of the multilateral development banks. At modest cost, poverty 
        alleviation programs could integrate an anti-slavery component 
        so that they would both detect slavery and know how to respond.

   Consistently include slavery on the agenda at the highest levels of 
        diplomatic discourse: Everyone expects the TIP Ambassador to 
        advocate for strenuous anti-trafficking efforts whenever he or 
        she is in dialogue with the foreign governments. It's quite 
        another matter when the Secretary of State or President raises 
        the issue at the highest levels. This high level diplomacy is 
        an effective strategy and should reflect our core values. An 
        unimpeachable Trafficking in Persons Report should undergird 
        our diplomatic efforts to eradicate slavery. To that end, the 
        J/TIP office should be ensconced in a structure and culture 
        that is fully supportive of its Congressionally mandated 
        mission.

   Invest in context-specific research to guide policy and program 
        design: Good policies and programs depend upon research that 
        elucidates that the magnitude and dynamics of slavery in 
        specific contexts. Investing in evaluation is also essential to 
        learning and accountability. Our experience has been a demand 
        for accountability and assessment, without investing in the 
        requisite analyses.


    Slavery eradication would be enormously advanced by this 
combination of measures, all of which are eminently feasible. They 
would allow for the scaling up of anti-slavery interventions, which is 
the essential challenge over the coming years. An agenda for change 
exists. We must now choose whether to pursue this agenda.
    I have spent more than 33 years working on issues of global health, 
poverty alleviation and social justice. That experience has left me an 
optimist, largely because of the incredible power of the United States 
in the service of a great moral purpose. Over the least thirty years, 
child mortality has plummeted, maternal mortality has been dramatically 
reduced, antiretrovirals have stemmed the HIV pandemic and incredible 
progress has been made against dreadful, insidious tropical disease. 
These and other fundamental changes have helped hundreds of millions 
people live healthier, safer, more prosperous lives.
    The leadership role of the United States in these changes is 
undeniable and of incalculable importance. The Congress, successive 
administrations and the American people should take great pride in the 
investments and sacrifices that have made the world a better place. So 
I have a profound faith borne of experience in the ability of my 
country to be a force for good in the world.
    I believe that the radical reduction of slavery is a cause worthy 
of our nation and resonant with our history. This cause is not too hard 
for us if we are tenacious in its pursuit and build upon what has been 
learned.
    The next President of the United States, whoever that might be, 
will have the opportunity to become the Great Emancipator of the 21st 
century by asserting U.S. leadership and galvanizing global action 
against slavery. This would be an enduring legacy. I am confident that 
this assertion of leadership in the struggle against slavery would have 
the support of the American people. There is no better place than the 
Senate Foreign Relations Committee to create a political environment 
conducive to bold action. It can do so by supporting an audacious 
agenda, such as the one I have suggested.
    Let me close on a personal note. My wife is a direct descendant of 
the Lovejoy family, who were very prominent abolitionists in the pre-
Civil War era; Owen Lovejoy served in Congress and was a fierce 
advocate of slavery abolition. My grandfather, a jeweler and watchmaker 
by profession, survived Auschwitz as a slave laborer, repairing that 
which had been stolen by the Nazis. I think our forebears would be 
surprised to see me testifying before this committee, with slavery 
still a pressing issue. I like to think that they would also be 
gratified that the testimony of their lives, as advocates and 
survivors, continues to resonate. My most fervent wish is that your 
grandchildren and mine have a very different discussion, looking back 
on an evil that we helped eradicate.
    Thank you for your kind attention.


    The Chairman. Thank you.
    Ms. Chumbow.

             STATEMENT OF EVELYN CHUMBOW, SURVIVOR 
                ADVOCATE, COLLEGE PARK, MARYLAND

    Ms. Chumbow. Thank you. Thank you for having me here.
    Again, my name is Evelyn Chumbow. I am a survivor activist 
for anti-human trafficking.
    I was trafficked from Cameroon to Silver Spring, Maryland, 
at the age of 9. My trafficker told my parents that I would 
receive a better education in the United States. However, 
instead of attending school, I was forced to cook, clean, and 
care for children of my captor. I would go days and weeks at a 
time without eating. Sometimes I would even have to stand 
throughout the whole night. Other times, my trafficker would 
beat me until she was too tired to continued. I was not allowed 
to sleep on a bed. I had to sleep on the floor.
    At 17, I discovered that I had a family member that lived 
in the area, which I ran into, which was my aunt--my auntie. 
She abused me and forced me to care for her daughter also. 
Eventually, I ran away from that and went to a local church, 
where I told a priest my story. Then I got in contact with 
Catholic Charities. My trafficker was investigated, and 
criminal charges were brought against my trafficker. I was 
placed into foster care and became a ward of state in D.C.
    I was happy to be in foster care, but the situation there 
was challenging. I was too old to go to high school, but I went 
to a public charter school. I was happy for the opportunity, 
but hated the school because of the other students. Most of 
them were either in gangs or were drug dealers.
    I refused to let the environment stop me from what I came 
here to achieve. Eventually, I earned my associate degree at 
the Community College of Baltimore County, and I just graduated 
from University of Maryland college with a bachelor in science 
in homeland security.
    When I turned 21 years old, I was no longer considered ward 
of state. I got in a house in Maryland, but still faced many 
struggles. For example, even though I was a green-card holder, 
I still did not have document necessary for many social 
services, including food stamp. For me, many others in my 
situation, there is no additional help available after the 
foster care system.
    There are three main messages I want to leave with you 
today:
    First, a lot of people are really interested in trafficking 
survivor stories and want to help victim escape trafficking 
situation once the trafficking victim become a survivor, like 
me. Most continue to suffer and struggle. The difference is, 
few people pay attention or even care. I hope you will help 
change the situation.
    I have physical scars that I carry with me, scars that I 
have to explain to my husband and my young son. I also have 
many emotional scars. Survivor need psychological services. If 
I had the money to go to therapy, I would go. Access services 
is hard. Finding long-term care is hard. Our life were taken 
away from us. We need help getting back into everyday life. 
Some of us are able to do, but some are not able. Important for 
survivors to have long-term care for their trauma that we have 
gone through.
    Second, I want to ask you to dedicate your effort toward 
ending modern-day slavery. That means addressing sex 
trafficking and labor trafficking, and not separating the 
issue. There is still a bill in Congress right now, that just 
passed in the House, called the H.R. 4058 Preventing Sex 
Trafficking and Improving Opportunities for Youth in Foster 
Care. This legislation address the child welfare system, but 
does not include children like me, you know, and children 
trafficked for labor. It only include children trafficked for 
sex trafficking. As an advocate, I have seen many other example 
of policymakers focusing attention on sex trafficking while 
ignoring labor trafficking. This is painful for me, for anyone 
who have been exploited for labor.
    My last message as an anti-trafficking advocate is that we 
can make a long-term change. My hope is that you will reach out 
other survivors to hear and understand what they believe in 
importance. Here are a few things on my priority list:
    One, providing long-term assistant, including education and 
job opportunity for human trafficking survivors.
    Two, employing foreign-born survivors to educate law 
enforcement on cultural dynamics and to provide interpretations 
to help prevent misunderstanding when assisting foreign victims 
of human trafficking.
    The key to preventing modern-day slavery is education. Many 
victim come from impoverished area overseas, like Mr. Maurice 
mentioned, where there is little to no opportunity for 
advancement. People find themself in situation out of the need 
and do not understand the potential implications of their 
decision to leave or to go to another country.
    I am now a mother, a wife. I just recently fulfilled my 
long-term dream of getting my degree. I am also working at the 
biggest law firm in the world, Baker McKenzie law firm. I am 
helping survivors of trafficking to get jobs.
    I am proud of all my accomplishment and proud that I can be 
here today to speak out on behalf of human trafficking 
survivors. Thank you for this opportunity.
    [Ms. Chumbow's prepared statement follows:]


                  Prepared Statement of Evelyn Chumbow

    My name is Evelyn Chumbow. I am a survivor of human trafficking and 
an active anti-human trafficking advocate. I also serve on the United 
States Advisory Council on Human Trafficking, following my nomination 
by President Obama in 2015, where I advise the President's Interagency 
Task Force to Monitor and Combat Trafficking in Persons (PITF).
    I was trafficked from Cameroon to Silver Spring at age 10. My 
trafficker told my parents that I would receive a better education in 
the United States. However, instead of attending school, I was forced 
to cook, clean and care for the children of my captor. Every time I 
would ask to go to school, my trafficker said I couldn't go because I 
was too stupid. I would go days and weeks at a time without eating. 
Sometimes I would have to stand throughout the whole night. Other 
times, my trafficker would beat me until she was too tired to continue. 
She would call me ``fat,'' ``ugly,'' and ``dirty.'' So dirty that I 
wasn't allowed to sleep on a bed and had to sleep on the floor.
    At seventeen I discovered I had family living in the area and ran 
away to my aunt's house. She also abused me and forced me to care for 
her daughter. Eventually, I ran away again and went to a local church, 
where the priest helped to put in contact with Catholic Charities. My 
trafficking was investigated, and criminal charges were brought against 
my trafficker. I was placed in foster care and became a ward of D.C.
    Foster care was a different, but also a difficult challenge. I was 
happy to be in foster care, but the situation there was also dangerous. 
I was placed in a low income neighborhood, and a lot of the other kids 
in the system were bad influences: drug dealers, prostitutes, gang 
members. I really wanted to get the education that was taken from me. I 
was too old to go to high school, but I went to a public charter 
school. I was happy for the opportunity to get an education, but hated 
school so much because the other students were gang members and drug 
dealers. But I refused to let that environment take over. I got my 
Associates degree from the Community College of Baltimore County and 
just graduated from the University of Maryland University College with 
a BS in Homeland Security.
    At age 21, I was no longer considered a ward of the state. I got a 
house in Maryland, but still faced many struggles. For example, even 
though I was a green card holder, I still didn't have the documents 
necessary for many social services, including food stamps. There is no 
additional help available after you leave the foster care system. A lot 
of people are really interested in your story and getting you out of 
your situation, but after we are rescued, nobody cares what you do.
    Survivors need more help once they escape their traffickers. We 
continue to suffer.
    When I left my trafficker, I was talking to trees and still 
insisted on sleeping on the floor. I have physical scars that I carry 
with me, scars that I have to explain to my husband and young son. I 
also have many emotional scars. Survivors need psychological services. 
If I had the money to go to therapy, I would go. Accessing services is 
hard. Finding long-term care is hard. Our lives were taken away from us 
and we need help getting back into everyday life. Some of us are able 
to do it, but some are not able. It's important for us to have long-
term care for the trauma that we've gone through.
    I get calls everyday from girls who have been trafficked and need 
help. I don't think that human trafficking should be only sex 
trafficking but all forms of modern day slavery, if not for me, for the 
next person. As an advocate, I have seen how society and even 
politicians talk about human trafficking, but it is rare to hear about 
real solutions, informed by survivors, that can make long-term change. 
We focus so much attention to sex trafficking that we lose sight of 
labor trafficking. We as foreign children that were brought in to the 
United State and forced to become slavers. I don't see the difference 
between sex and labor trafficking, there are people that are in labor 
trafficking that also being sexually exploited everyday by their 
traffickers. I want us to focus on ending modern day slavery instead of 
separating the issue.
    There is a bill in Congress right now that just passed in the House 
called HR 4058: Preventing Sex Trafficking and Improving Opportunities 
for Youth in Foster Care Act that is dealing with the child welfare 
system--but it doesn't include children like me, children trafficked 
for labor. It only includes children trafficked for sex.
    I would like to recommend long-term assistance for survivors of 
human trafficking, including education and job opportunities. 
Additionally, foreign survivors should educate law enforcement 
officials on the cultural dynamics in relation to foreign victims of 
human trafficking. Language barriers create misunderstanding between 
foreign victims and law enforcement. Having survivor interpreters may 
help alleviate misunderstandings.
    The key prevention tool for modern day slavery is education. Many 
victims come from impoverished areas where there is little to no 
opportunity for advancement. People find themselves in these situations 
out of need and do not understand the potential implications of their 
decision to leave and go to another company. They have a skewed idea of 
reality that a foreign country will offer more opportunity, however 
many find themselves enslaved. Additionally, even those that have 
escaped from their situation find themselves re-victimized due to lack 
of job opportunities.
    With all that I have gone through, I am now a mother and wife, I 
just recently fulfilled my long term dream of getting degree, I am also 
working at one of the biggest law firms in the world and working to 
help survivors of trafficking to get a job.


    The Chairman. Thank you. Thank you very much.
    Leah?

STATEMENT OF LEAH WARNERS, HUMAN TRAFFICKING SURVIVOR, SURVIVOR 
              ADVOCATE, SOUTHEASTERN UNITED STATES

    Ms. Warners. Okay. As Ms. McCain and Mr. Middleberg said 
earlier, I am honored to be here, sitting with all of you all. 
And I genuinely want to thank each and every one of you for the 
opportunity to let me share a glimpse of my story, something 
that has gone on for far too long that needs to be recognized 
and totally eradicated from our society.
    I was a typical teenager. I came from a loving Christian 
family, had lots of close friends, but one bad decision 
ultimately changed my life forever. I became addicted to drugs, 
and the one person that I thought was going to help me break 
free of my addiction was, in fact, a trafficker of young women 
for the sex trade.
    It seems strange to even use the term ``modern-day 
slavery'' in our country, but it went from something that I 
knew next to nothing about to the way that I was forced to live 
my life for the next 7 years.
    I knew of slavery from what my history classes taught me. 
It ended. Unfortunately for so many living today, that is just 
not true. This is a way of life they are forced to live, how to 
think, when and where to eat, sleep, and work. Slavery is alive 
and well today. Modern-day slavery, or as my pimp referred to 
it, ``white slavery,'' it is simply a way for monsters to make 
a very good living.
    Throughout the 7 years of being trafficked, I along with 
other young women were used as a commodity by one pimp and were 
bounced around from Myrtle Beach, South Carolina; Miami, 
Florida; Houston, Texas; San Diego, California; New Orleans, 
Louisiana; Scottsdale, Arizona; Chicago, Illinois; Columbus, 
Ohio; and Denver, Colorado, for the sake of making money to 
enable our pimp to live the lavish lifestyle that he wanted to 
live.
    We were used to glamorize and entice more young girls to 
ultimately feel a sense of initial comfort, only to be 
brainwashed into a dark cult of servitude. We were trained for 
one thing: to make him money. He was, and still is, the most 
manipulative, calculated person that I have ever encountered.
    My heart bleeds for the victims that are still under the 
control of others living similar lives. I was fortunate in the 
fact that I had a loving, caring family and close friends who 
welcomed me back with open arms, helping me to find my new 
normal. This was all done with the assistance of A-21.
    Unfortunately, so many other victims are not as fortunate 
as I, coming from backgrounds that include abuse and neglect, 
and may fall through the cracks of what limited social services 
may be available to them. With the absence of a strong support 
system, these survivors are more likely than not to find 
themselves back in similar or even worse situations.
    If you are not familiar with A-21, let me just tell you a 
little bit about what they are doing worldwide. They have been 
operating for 8 years, currently working in 10 countries 
directly with survivors of trafficking across four continents; 
specifically, USA, Thailand, Greece, Bulgaria, Ukraine, and 
South Africa. They have provided direct assistance to countless 
victims, some victims being as young as 4 years old. They have 
provided assistance not only in sex trafficking, but in forced 
labor, forced begging, domestic servitude, and organized theft 
rings. They have a comprehensive aftercare to bring the 
survivor all the way from the point of rescue to escape to 
independent living. This includes full medical care, trauma 
rehabilitation programs, education support, and social 
enterprise opportunities. A-21 also offers legal representation 
for their survivors and have seen significant sentences on 
human trafficking across Greece, Ukraine, Bulgaria, and South 
Africa, so far.
    Without A-21, I would not have been able to walk this road 
to healing. Without the constant support and dedication of A-
21, I am not exactly sure where I would be today. Cara Lee 
Murphy, who is the U.S. aftercare manager, has gone above and 
beyond to ensure that my past does not define my future. She 
continues to push me forward and to excel in whatever endeavor 
I choose. Without her, I could have just been another girl.
    Today, I want to stress the importance of education of 
human trafficking. It does exist, and not only in third-world 
countries. It is a way of life for criminals in the heartland 
of America. I owe my recovery to the A-21 Campaign.
    A-21, which is not only for abolishing and educating our 
society on modern-day slavery, but for the recovery of victims, 
such as myself, throughout the entire process. And when I tell 
you that it is a process, it is a process, a slow day-by-day 
process. Coming from a situation like I was in and getting 
thrown back into normal society, you have to find your new 
normal.
    Now that we know the truth about human trafficking, we 
cannot turn our backs and pretend that this problem does not 
exist. Therefore, I cannot express to each of you, in these few 
minutes, how important it is that we concerned citizens, 
educators, legislators, nonprofits, and law enforcement educate 
our youth and communities on what human trafficking is, how 
pimps work, who they profile. It is a dirty secret in our 
society, but we can prevent others from falling prey to these 
predators. This was something I was never taught. This is a 
cancer growing stronger each day, and it is up to each of us to 
do our part to stop it. I encourage you to take a serious look 
at this problem and do everything in your power to assist 
agencies like the A-21 Campaign.
    Thank you for your time, and God bless.
    [Ms. Warners's prepared statement follows:]


                   Prepared Statement of Leah Warners

    First of all, I want to genuinely thank each and every one of you 
for the opportunity of letting me share my story in the hopes that 
something that has gone on for far too long will be recognized and 
totally eradicated from our society.
    I was a typical teenager, came from a loving Christian family and 
had lots of close friends. But one bad decision would ultimately change 
my life forever. I became addicted to drugs and the one person I 
thought was helping me break free of my addiction was in fact a 
trafficker of young women for the sex trade.
    It seems strange to even use the term ``Modern-day slavery'' in our 
country, but It went from something I knew next to nothing about, to 
the way I was forced to live my life for seven years. I knew of slavery 
from what my history classes taught me, it ended. Unfortunately, for 
many people today, this is just not the case. This is a way of life 
they are forced to live, how to think, when/where to eat, sleep and 
work. Slavery is alive and well today. Modern Day slavery, or as my 
pimp referred to it, ``white slavery,'' is simply a way for monsters to 
make a very good living.
    Throughout the seven years of being trafficked, I--along with other 
young women--were used as a commodity by one pimp and were bounced 
around from Myrtle Beach, SC; Miami, FL; Houston, TX, San Diego, CA; 
New Orleans, LA; Scottsdale, AZ; Chicago, IL; Columbus, OH and Denver, 
CO--for the sake of making money to enable our pimp to live the lavish 
lifestyle he wanted to live. We were used to glamorize and entice more 
young girls to ultimately feel a sense of initial comfort, only to be 
brainwashed into a dark cult of servitude. We were trained for one 
thing, to make him money. He was and still is, the most manipulative, 
calculated person I've ever encountered.
    My heart bleeds for the victims that are still under the control of 
others, living similar lives. I was fortunate in that I had a loving 
and caring family and close friends who welcomed me back with open 
arms, helping me to find my new normal. This was all done with the 
assistance of A-21. Unfortunately, so many other victims are not so 
fortunate as I, coming from backgrounds that include abuse and neglect 
and may fall through the cracks of what limited social services may be 
available to them. With the absence of a strong support system, these 
survivors more likely than not, will find themselves back in similar or 
even worse situations.
    If you're not familiar with A-21, let me just tell you about what 
they are doing worldwide:


   They've been operating for 8 years, currently working in 10 
        countries directly with survivors of trafficking across four 
        continents, specifically USA, Thailand, Greece, Bulgaria, 
        Ukraine and South Africa.

   They have provided direct assistance to countless victims, some 
        victims being as young as four years old.

   They have assisted victims not only in sex trafficking, but in 
        forced labor, forced begging, domestic servitude and organized 
        theft rings.

   They have a comprehensive after care to bring the survivor all the 
        way from the point of rescue/escape to independent living. This 
        includes full medical care, trauma rehabilitation programs, 
        education support and social enterprise opportunities.

   A-21 also offers legal representation for their survivors and have 
        seen significant sentences on human trafficking across Greece, 
        Ukraine, Bulgaria and South Africa so far.


    Without A-21, I would not have been able to walk this road to 
healing. Without the constant support and dedication of A-21 I'm not 
sure exactly where I would be today. Cara Lee Murphy, who is the U.S. 
aftercare manager has gone above and beyond to ensure that my past 
doesn't define my future. She continues to push me forward and to excel 
in whatever endeavor I choose. Without her, I could have just been 
another girl forgotten.
    Today I want to stress the importance of education on human 
trafficking--it does exist and not only in third world countries. It is 
a way of life for criminals in the heartland of America. I owe my 
recovery to the A-21 campaign, which is not only for abolishing and 
educating our society on modern day slavery, but for the recovery of 
victims such as myself throughout the entire process. And when I tell 
you that it's a process, IT IS A SLOW, DAY-BY-DAY, PROCESS. Coming from 
a situation like I was in and getting thrown back into ``normal'' 
society, you have to find your new normal.
    Now that we know the truth about human trafficking, we cannot turn 
our backs and pretend that this problem does not exist. Therefore, I 
cannot express to each of you in these few minutes, how important it is 
that we--concerned citizens, educators, legislators, non-profits, and 
law enforcement--educate our youth and communities on what human 
trafficking is, how pimps work and who they profile. It's a dirty 
secret in our society, but we can prevent others from falling prey to 
these predators. This was something I was never taught. This is a 
cancer, growing stronger each day and it is up to each of us to do our 
part to stop it.
    I encourage you to take a serious look at this problem and do 
everything you can in your power to assist agencies like the A-21 
Campaign. Thank you for your time and God bless you.


    The Chairman. Thank you very much for your testimony, and 
to both of our victims for their courage in being here.
    And, Leah, was the perpetrator of this crime convicted?
    Ms. Warners. Yes, sir.
    The Chairman. And were you in a situation where you were 
concerned about retribution from him?
    Ms. Warners. From him?
    The Chairman. Yeah.
    Ms. Warners. No.
    The Chairman. So, you were away and were not worried about 
that.
    Ms. Warners. Well, I am still worried about it, but, during 
the time, I was just more concerned about him actually facing 
prison time and not walking.
    The Chairman. And you mentioned education and awareness. 
And again, much of that is occurring today. But, other than 
making people aware of the vulnerability of this occurring, 
what do you think are the most important tools in ending this?
    Ms. Warners. Education. And I know you just said that, you 
know, we are educating people, but if we let people know 
exactly what to look for, it will put a stop to it or decrease 
the chances of falling victim to it.
    The Chairman. Cindy, one of the things that we have seen 
around the world is that slavery is a crime of opportunity, 
that, in every country in the world, slavery is against the 
law. But, as was mentioned by Mr. Middleberg, a lot of times it 
just goes with the culture there, the police departments, the 
prosecutors are not pursuing it. And we have seen, on the other 
hand, when there is a price to pay, when people know there is a 
price to pay, that there are huge decreases in the amount of 
slavery that takes place, and a culture change within those 
departments when they see convictions taking place. Has that 
been your experience?
    Ms. McCain. Very much so. from my own personal experience, 
I think accountability is key here to any of these countries. 
Many of them have great laws on the books, but they just simply 
either do not enforce them or do not care. And so, as was 
mentioned by Mr. Middleberg and others, the importance of 
making sure that these countries are accountable for what they 
are doing, and that they are, indeed, doing what they say they 
are doing, is really important. And awarding countries a move 
up on the TIP report because they have some other reason to be 
generous to the world--I mean, it just does not make any sense 
to me, because these are women and children, particularly 
children, that are at stake.
    The Chairman. I know Mr. Middleberg mentioned that, and I 
do want you to know there have been reforms relative to the TIP 
issue. And, as Senator Cardin mentioned, all of us are 
stressing that much more. But, I agree with you, at the highest 
levels, it needs to be dealt with.
    Do the two of you believe that if the United States took 
leadership and was able to put together, through public/private 
partnerships and other governments, the resources that you 
talked about, Mr. Middleberg, do you think we could have the 
same effect on modern slavery that we have had on HIV around 
the world?
    Mr. Middleberg. Mr. Chairman, I have been doing this kind 
of work--global health, poverty alleviation, social justice--
for well over 33 years. And, in that time, I have seen 
absolutely amazing, remarkable, profound, positive change. 
Child mortality rates plummeted, maternal mortality rates 
plummeted, the HIV pandemic halted, you know, many other 
amazing changes that we would never have expected 35 years ago. 
And in every instance, it has been when the United States of 
America asserted global leadership. There is no substitute for 
the United States. And I am profoundly proud of my country, 
because of what I have seen. And, because of that, I actually 
have--I am an optimist. I started my remarks by saying that my 
message today is really one of optimism and hope, because I 
know that when the United States of America ties itself to 
great moral purpose and invests tenaciously in that issue, that 
we always, always see profound change. And I believe that the 
moment has come for the United States to once again assert its 
moral leadership on this issue and make the requisite 
commitment, which will require sacrifice and resources, but the 
results will be worth whatever sacrifice we need to make, and 
we will live in a safer and better world for that.
    The Chairman. And I would just ask all of you if the 
resources that you are talking about, when you look at it on an 
international basis, is small, when you know that $150 billion 
each year in profits is being generated, by the way, by mostly 
smaller businesses--most of these are not mafia-oriented 
entities; they are small businesspeople that, unfortunately, 
because they know they are not going to be prosecuted, continue 
to do what they were doing--so, is it your belief that--is 
there anything that you know of, from the standpoint of the 
American people showing moral leadership around the world, that 
can be solved with a small amount of resources when you think 
about everybody in the world participating, when you think 
about the philanthropies that exist to support these kinds of 
efforts--can you imagine anything more important for the United 
States to be involved in, in this moment?
    Ms. McCain. No, I cannot, when you are talking about 
children. And, in my belief, I completely agree with what Mr. 
Middleberg said, but I also believe that we have more to do 
here within our own borders. I hesitate again to bring up the 
Super Bowl, but large organizations and large events like that 
are really important to this issue. And yet, somehow we let our 
NFL chief and the other people that are part of all these kind 
of overlook it and give those of us that work in this kind of 
the ``boys will be boys'' deal, ``do not worry about it'' 
attitude. I think, until we can hold ourselves accountable in 
this, it is going to be difficult, in my opinion, to be able to 
be successful around the world.
    Mr. Middleberg. Senator, if I might just add to that, 
please, that clearly with a widely dispersed crime--as you 
said, a series of small businesses--it requires effort at large 
scale. And this cannot be done with the level of resources that 
are currently available. I would go back to my call for 
investing 2 cents for every dollar the traffickers are putting 
in their pockets. That would finally begin to put the right 
level of resources on the table to combat this crime.
    And your reference to the fact that these are not mafia--
part of my optimism is that our experience is that, in some 
sense, these traffickers are incredibly weak. What has been 
really amazing to me is, in fact, how easily they can be 
toppled when concentrated effort is put at them. These are not 
great chieftains of major organized crime. But, when they are 
confronted--it is easy for them to do their crimes at a small 
level, when no one is paying attention and no one is fighting 
back. But, when they are pushed, they will give up. And that 
has been our experience, even with the modest resources we can 
bring to bear.
    The Chairman. I was a bad traffic cop yesterday, and I am 
going to do better today. I just want to ask one last question.
    Is it true that, in the United States and around the world, 
there are numbers of organizations, like yours, like IJM, like 
A-21 and others, that already know what the best practices are 
in dealing with these issues? And if we could just marshal that 
together in an international effort, we have the ability, we 
just need to pull it together and make it happen. Is that true 
or false?
    Mr. Middleberg. Absolutely, sir. That was part of my 
reference to the fact that we have evolved this three-pronged 
approach. Different organizations specialize in different 
approaches. But, the knowledge and the experience we have 
gained over the last 15 years is actually quite remarkable. And 
we have the ability to make a huge different, given what we 
have learned, if the resources are available.
    The Chairman. Thank you. Thank you very much.
    Senator Cardin.
    Senator Cardin. Well, first, I want to thank all of our 
witnesses, but I particularly want to thank Leah and Evelyn for 
putting a face on this issue. You know, we hear the millions, 
but they are real people. Each one is a person with a story and 
a family.
    Evelyn, you point out that parents want a better life for 
their children. And, in many countries around the world, they 
do not see a future for their children. So, they get into a 
circumstance where they think they are doing the best for their 
child--to be educated and an opportunity in the great America--
only to find that they were fraudulently misled for economic 
advantage of the trafficker, not their child, and to become a 
circumstance where the child has been victimized.
    And, Leah, it happens here in the United States. Here we 
think we are the country that has protected our citizens, and 
yet the vulnerabilities are here, the greed is here. And you 
put a face on it.
    So, for both of you, the courage to come before our 
committee, thank you. It is so important for Americans to 
understand, beyond the numbers, of the lives that have been 
changed forever as a result of the activities of traffickers.
    And, you know, we could have Rohingya and Cambodian men and 
boys who have been trafficked through the fishing industry in 
Thailand, and we could have a person here that would show how 
that person's life was destroyed. And, in a way, we support 
that by the fish we consume in this country. So, we need to 
draw the lines and understand what is involved here. We could 
certainly understand ISIL and Boko Haram and the terrorist 
organizations and how they traffic in order to support their 
activities.
    So, I thank you for putting a face on it.
    I just really want to underscore what both, Mr. Middleberg 
and Ms. McCain, you have said about U.S. leadership. Let me 
take you back many years ago, in the Helsinki Commission, where 
we raised the issue, internationally, of trafficking. This is 
going back 30 years ago. And I particularly want to mention 
Congressman Smith and his leadership on this issue. We, in the 
OSCE, raised the issue and brought it to the attention. And 
OSCE responded and developed technical support for all the 
states of Europe and Central Asia. We have a person designated 
to monitor what is going on. We have developed best practices. 
And it has made a difference. That was U.S. leadership that 
brought a change. We could use that--by the way, we do not have 
a similar mechanism in Asia, we do not have a similar mechanism 
in Africa, or even in our own hemisphere, as we do within the 
OSCE.
    Second area where U.S. leadership made a huge difference, 
the passage of the legislation to set up the Trafficking in 
Persons Report. And it is the best standard we have to 
objectively evaluate the efforts being made in every state in 
the world, including the United States. Every state can 
improve. Many states have yet to enact enforceable laws. Many 
states still looked at the victims as criminals rather than as 
victims. Many states have not set up centers that can protect 
the victims from trafficking. There is still a lot more that we 
know, on a uniform basis, that can be done. And the Trafficking 
in Person Report establishes the standard.
    And that is why--I think the work we did, Mr. Chairman, 
this past year on the report--I certainly understand the 
explanations givin to us by the State Department on the 
improved ratings of some states.
    But, let me tell you, Mr. Middleberg, your point about 
high-level engagement--I think we got their attention. We let 
them know that trafficking will not be compromised because of a 
trade agenda or because of trying to establish better 
diplomatic relations with other countries. We are not going to 
sacrifice our principles on trafficking. And I think that was 
made very clear. And I--as I mentioned, Senator Flake is now 
here, and Senator Coons--we were countries in the southern part 
of Africa, and I think now the leaders of those countries 
understand America's priority on trafficking. And the leaders 
are now better informed about that. It makes a difference.
    So, U.S. leadership, to me, is critically important. It 
goes to whether the President of the United States will have it 
on the agenda when he has a meeting with his counterpart in 
some other country, or the Secretary of State, or that, when 
our Ambassador sets up the contacts in-country, whether that is 
on that top list. And that is leadership. And that is our 
responsibility, collectively, to make sure that that is part of 
the discussion. And we will continue to use those 
opportunities.
    And it is what Chairman Corker is talking about. It is 
amazing how little resources it really takes to counter this 
activity. You said 2 cents of every dollar that is earned by 
the profiteers. That would make a huge consequential difference 
on this area.
    So, I really believe we can do a lot better. We have made 
progress, but there is so much more that needs to be done.
    And what concerns me, and the question I will just ask the 
panel--we look at the numbers. We know the numbers. And we look 
to how few have been identified, how few of the victims have 
been identified, how few cases are brought in the courts, how 
few convictions we have. It is a shockingly low number. So, 
there are people today in the United States, in every country 
in the world, who are being victimized that we have not been 
able to reach, in huge numbers. Only a small fraction we have 
been able to provide relief. So, what can we do to have better 
opportunities to protect the people who are currently 
victimized and to bring successful prosecutions against those 
who are trafficking?
    Ms. McCain. Well, if I can take that a little bit, here.
    I think the best bet, as was mentioned by our two 
survivors, is education and awareness. The approach that we 
have taken back home is, we have compiled a huge task force 
that is actually educating the community. You know, where we 
have not been successful integrating the schools on this 
issue--and, in my opinion, I think we should be talking about 
this issue at the elementary level--but, education awareness, 
education awareness, education awareness is the only way we are 
going to be able to, in my opinion, to be able to really make a 
difference on this issue within the borders of the United 
States.
    Mr. Middleberg. Senator, let me add to Mrs. McCain's 
statement with a couple of suggestions that emanate from our 
work.
    One is to support advocacy coalitions of civil society in 
the countries that are most affected. We do so in places like 
Nepal and Haiti and Congo. And that becomes a force where civil 
society begins to hold the government accountable on this 
issue. It needs--this is, again, where--in part, tied to the 
resource issue--because those advocacy coalitions need 
resources, they need training, they need technical assistance 
about how to mount advocacy campaigns where they can hold their 
own governments accountable. So, that would be one important 
step, is to have loud civil society voices in the countries 
that are most affected.
    Second, the importance of training programs for law 
enforcement. We should not assume that police know how to 
address this crime. What we have found is that often they do 
not know what their own laws say. They are not well trained. 
They are terribly under-resourced. They do not know how to 
investigate the crime. The judiciary do not know how to deal 
with the crime. So, there is a need for training of the 
concerned government officials, like police and judges and 
magistrates, and so on.
    Third is the importance, actually, of training journalists. 
Part of what we have done is actually trained media on how to 
do stories on slavery, because they do not know about it, 
frankly, any more than anybody else. You train reporters. They 
begin to do stories in the local media, and that then shines a 
spotlight on the problem, and it becomes much harder for the 
local authorities, the local police captain, to say, ``Well, I 
do not know.'' And the reporter says, ``Well, it took me a week 
to find all these cases. Why can you not?'' So, there are very 
concrete steps that can be taken that help accelerate 
prosecution of the crime.
    Senator Cardin. Thank you. That is very, very helpful.
    Ms. Chumbow. And--sorry--no, just to--I agree with 
everything that Mrs. McCain said and Maurice said. Really, the 
number-one key, I would say, education. And definitely educate, 
not only the law enforcement, but the embassies, especially 
coming from another country to the United State. A lot of our 
embassies do not know how to deal with us, you know, victims. I 
think that we need to do more training when it comes to a lot 
of these embassies. I just speak, for example, because even 
though my case was investigated,by my embassy. The government 
in Cameroon knew my situation, but it really hurt me that I 
could not go back to my country because they thought I was not 
Cameroonian. You know, that hurt me a lot, that I could not get 
a Cameroonian passport. And I really do appreciate everything 
the United State has done. They have definitely done a lot of 
work when it comes to human trafficking. I think Mrs. McCain 
mentioned you guys are the leaders. All these other countries 
look up to you to implement a lot of their laws, and they 
really do not implement those laws even though you have them in 
those books and in things like that, because it is sad that I 
was brought in this country at a age of 9, but I could not go 
back to see my parents. You know, I had to go to court, I had 
to face so many different obstacles, you know. And my 
government did so--or no--not a lot of things to help me. You 
know, I am going to say I love the fact that I am American, 
really, because it just showed that you guys care a lot for 
your citizen.
    But, I am fighting to hope that countries in Africa can 
also fight for their citizen, fight for their children, like 
you guys fight for your citizen. I would love my country to 
fight for me, because that is where my parents are. Imagine not 
seeing your parents from the age of 9 until 18, you know, and 
this is the only place I know. So, we need to do more with the 
embassies and really have this government and this country to 
be responsible for their citizens.
    Senator Cardin. Thank you.
    The Chairman. Thank you.
    In order to have the hearing today and get all the 
witnesses, we had to schedule today instead of tomorrow, and I 
have got to leave for something that is been set for a long 
time. And I think Senator Cardin is going to take over. We 
trust each other eminently. And on this issue, who would not?
    Let me just say to the witnesses, the victims, I think all 
of us become aware of this, but, until we meet people like you 
who have gone through this--my experience with this was in the 
Philippines, but it is you that put the face on this crime. And 
we thank you for being here. And I think once people hear 
stories like yours, it is very difficult to turn your back on 
the issue and move along, do your business in an ordinary way 
and not want to do something about this. So, we thank you both 
for being here. We thank all the witnesses for being here.
    And, to that, Senator Gardner.
    Senator Gardner. Thank you, Mr. Chairman.
    I reiterate the thanks. Thank you, to the advocates, thank 
you, to the panelists. Mrs. McCain, welcome to the committee.
    I had, last week during the work period, a conversation 
with the special agent in charge of the FBI of Colorado, Agent 
Ravenel. And we had a conversation about some of the challenges 
that they were facing in Colorado, what some of his top 
priorities were. And, amongst the conversations, we started 
talking about human trafficking issues, modern-day slavery. And 
he made a point that, even downtown Denver, on the 16th Street 
Mall--he told a very poignant story about a girl who looked 
homeless. And he said, in fact, if a girl is homeless or 
appears homeless on the 16th Street Mall, that, within 2 hours, 
that girl is approached, offered food, shelter, help--not by 
somebody who is being kindhearted and good-natured, but 
somebody who wishes to start a lifetime of trafficking. And 
what a dramatic turn in that young person's life that is.
    And so, it is not something that we talk about enough, I do 
not think. And I am glad that you are here to do it in this 
committee, and this Congress is taking great strides to talk 
about it as much as we can.
    And so, both your statement, Ms. Chumbow, to talk about, 
``I wish that my country fight for me.'' I wrote it down when 
you said it, ``I want my country to fight for me.'' That is a 
pretty incredible and powerful statement.
    And, Mrs. McCain, in your testimony, you said, ``Human 
trafficking is not just an international issue, and we, as a 
country, need to address it in our own States and 
communities.''
    When we passed the human trafficking bill last year, one of 
the components of it was language that we helped add to talk 
about, you know, while we are addressing the challenge around 
the globe, that we also have to look inward, and we cannot 
forget that this is happening in places like I just mentioned, 
where the FBI is worried about the 2 hours that somebody is 
going to be approached from the time that they show up on the 
16th Street Mall to the time somebody comes to try to engage 
them in human trafficking.
    And so, I guess the question I have is, What more can we be 
doing at the State level to combat human trafficking? What more 
can the Federal Government be partnering to do with the State 
level to combat this scourge?
    Ms. McCain. Well, in my opinion, and from the experience 
that we have had in Arizona, it really comes from within. The 
Federal Government can be very helpful, and already has been 
very helpful on this issue, with funding in certain areas. But, 
you know, we are dealing with a--an epidemic, here. And this 
epidemic is not just something that we see, but it is also 
something that is on the Internet. And we are going to have to 
face the fact that, unless we figure out how to deal with 
organizations like Backpage and others that are like that, we 
are not going to get ahead of this. Education was mentioned. 
All--you know, all the things that we have all talked about--
treating them like victims, making sure our police force knows 
and understands and are trained in this. But, I--in my opinion, 
I think we need to work collectively, not only as States, but 
nationally, together. I think there are a lot of people doing a 
lot of good things, and I think a lot of things are being 
duplicated. And I think a little--in my opinion, a little 
better organization would be very helpful, on the ground at 
least. And that is how I--I work on the ground.
    Senator Gardner. In terms of that duplication, is anybody 
sort of looking at that? Is there a place where we can look at 
and say, ``This is being duplicated. This is the service''? Or 
is that something that maybe it is appropriate role for 
Congress to take a look at?
    Ms. McCain. I do not know if anyone is doing that. I know, 
at the McCain Institute, we are trying to figure out just who 
is--you know, where all the pieces of the puzzle are with all 
of this. But, I--other organizations, like Mr. Middleberg and 
others, may have a better answer to that. But, just from my own 
experience, duplication is a problem with this, and people not 
talking to each other, the lack of communications between NGOs 
and governments and local law enforcement, et cetera.
    Senator Gardner. And feel free, the other panelists, if you 
would like to join in on this.
    Mr. Middleberg. Well, I would bring to your attention, 
actually, a report we did with Deloitte, called the Freedom 
Ecosystem Report. And one of the issues that we actually 
highlighted in that report is the importance of partnership and 
collaboration and coordination, that there is a degree of 
atomization in the efforts against slavery, and that we would 
all benefit from putting in place a better architecture that 
would allow for partnership and complementarity and 
collaboration. And there are organizations, NGOs, that are 
taking steps, actually, to try to work with each other and 
really have candid conversation about, ``Well, you know, what 
is it that we are not doing, or we should be doing, or we could 
do better in order to work together?''
    So, this is not--I mean, forgive me--it is not a U.S. 
example, but we recently entered into a joint venture with an 
organization called Beyond the Border, where we really said, 
Look, we both work in Haiti, we are both addressing the child 
domestic servitude issue, we both have similar philosophies, so 
we are going--we signed a formal agreement to pool our 
resources so that we could work together truly collaboratively 
and have one integrated structure between the two 
organizations, you know, in a sense, a real formal joint 
venture, so that we could be more effective with the resources 
each of us can bring to bear. And I think more of those kinds 
of conversations, where we can put aside our organizational 
egos or, frankly, the turfs between different agencies, it 
would be really helpful.
    Senator Gardner. If the other two would like to, or not, 
that is fine.
    Ms. Chumbow. So, yeah, I agree with what Maurice said, you 
know, collaboration and unity, working together, because a lot 
of times when we talk about human trafficking, really, like I 
mentioned earlier, we often just hear about sex trafficking, 
you know, and the focus is so much on sex trafficking that you 
forget victims like me, other victims. You know, I have always 
tried to, when I advocate, I believe in unity. Labor and sex 
trafficking, to me, I really do not see any difference, because 
a lot of time people that are labor trafficked, they are 
sexually exploited, too, every day. But, we do not get to hear 
that story, you know. And it is really a lot of these NGOs, 
like unity is very important. And if you really want to work on 
this crime, helping to end this crime.
    These are human beings we are talking about. You are 
talking about people, people that have family, you know, that 
their lives have been taken away, they have been treated like 
they are nothing. And it does not really matter what form of 
trafficking they experience. It is just sad that--to know that 
they went through that. And we need--we--because there is so 
much separation in this movement, when it comes to, like, 
training. A lot of the people that get to train law enforcement 
are usually survivors of sex trafficking. It would be nice to 
have survivors that are foreign to train law enforcement also, 
because that way they can also understand where we are coming 
from. I did not ask to be brought in this country. I was just a 
young lady that had a dream to want to marry Will Smith. 
[Laughter.]
    Ms. Chumbow. But, it happened that I was brought here. I 
did not ask to be brought here. And then I am here, I cannot 
get a lot of services, I do not get a lot of help because I am 
a foreigner, you know, and so there are many of us foreigners 
that were brought here without our knowledge. And we really 
appreciate your help, but then I feel like we should also be 
getting the type of services that you offer your citizens, 
because we were not asked to be brought here. If you are not 
going to offer us those services, then, okay, make our country, 
like I mentioned earlier, to fight for us, then, tell them to 
work on us, to help us, or to bring us back in our country and 
we can get jobs there.
    Senator Gardner. Thank you.
    Ms. Chumbow. Thank you.
    Senator Cardin [presiding]. We have developed special 
protections for victims who are--come to our country, so there 
is a process, as you know, for protection. We may need to try 
to strengthen that, because your point about being able to 
return to your country is a issue that we may be able to 
handle, but, in a way, Cameroon also is involved in making 
those types of decisions, who can visit their country. So--but, 
we do recognize victims of trafficking as a special category.
    Senator Coons?
    Senator Coons. Thank you, Senator Cardin.
    Leah and Evelyn, thank you for your courage, for sharing 
your stories today. And I thank God for the volunteers and the 
activists who have helped bring you to safety and helped 
sustain you and support you in your testimony here today and in 
your return to a normal life, whatever that really means, and 
to your willingness and courage to share both about sex 
trafficking and about domestic labor trafficking, and to help 
encourage all of us, Senators from both parties, to focus on 
this issue, that it is a real problem, a real human rights 
problem here in our own country and around the world.
    Also, to the organizations, from ENDIT to A-21 to Free the 
Slaves, Maurice, thank you. And Mrs. McCain, from our first 
trip together to Liberia, I have been hugely impressed with 
your passion and your persistence, your work across the world. 
Thank you.
    And, to Senator Cardin, thank you for being a great 
advocate. In the trip that we just concluded, we met with 
several heads of state, and Senator Cardin was impressive, 
engaged, focused, and, frankly, aggressive about the TIP Report 
and about trafficking in persons in a way that dominated our 
conversation with one president, and clearly got under his skin 
a little bit, and challenged several other heads of state and 
national leaders. It was an honor to travel with you and to see 
you in action really pushing this issue.
    And, to Senator Corker, who has left, I am proud to be a 
cosponsor of his bill, and I think all of us are grateful for 
his initiative and his focus, his success in getting a 
dedicated appropriation and now, hopefully, legislation through 
this Congress, is an encouraging reminder of how bipartisan 
this committee has been under the leadership of Senators Corker 
and Cardin.
    Let me just ask, if I can, two fairly straightforward 
questions:
    For Evelyn and for Leah, if you might, what was the most 
important resource or support, what helped sort of bring you 
back to the world of the living and the free more than anything 
else?
    And then, if I might, for Maurice and for Cindy, you have 
talked about community-based abolition as a strategy for 
helping deliver on bold higher-level action and effective 
partnership. I know A-21 has four P's that includes prosecution 
and prevention, but, Cindy, I would be interested in what else 
you see as key to a strategy that will scale this up and make a 
difference. And if you could just take the rest of my 5 minutes 
and answer in series, I would really appreciate it.
    Thank you.
    Ms. Warners. Okay. And I just wanted to mention before, 
when they were speaking about, you know, the the whole thing, 
it starts with education. Okay? We need to educate on what to 
look for, you know, the girl in Denver who was on the streets 
for 2 hours. If she would have known, possibly, what a 
trafficker would approach her with, that education----
    Senator Coons. It is the prevention education.
    Ms. Warners. The prevention education, absolutely.
    And then, for the victim, what has gotten you through the 
most--for me, it has been the constant support of A-21 and the 
therapy that they have been able to help provide, because you 
cannot go back into society after going through years and years 
of what me and so many other people go through. So, you need a 
constant support.
    Senator Coons. Thank you. I am grateful for your return.
    Evelyn?
    Ms. Chumbow. Same thing. For me, really, I really love all 
the NGOs, because they understand this issue, and they were 
there at firsthand, you know, and it is just one person that 
was there that--like, some of us, like Leah mentioned, is 
education, not knowing, because I did not know I was a survivor 
of human trafficking. How will I know if I was a slave, you 
know, if it was not for the person that was working at that NGO 
that identified me as that, you know? And they really were my 
backbones, the NGO that helped me, helped me to understand 
that--taken abuse--you know, they were abusing me, and like all 
the scars I have in my body, they were firsthand and just 
knowing that.
    But, knowing that, what kept me going was the fact that I 
knew that my mother sent me here to get an education, because, 
again, we feel like coming to this country, we would get better 
education than somewhere else. So, never giving up on that 
education, despite all the obstacles that I went through in 
foster care, out, and everything, I just keep fighting and 
knowing that I have to be better for myself. Yes, I could get 
therapy, but a lot of the therapists could not understand my 
situation.
    Senator Coons. Thank you, Evelyn.
    Ms. Chumbow. Thank you.
    Senator Coons. Maurice?
    Mr. Middleberg. Senator, thank you for your question and 
for your support.
    So, what I would refer to are sort of five basic elements 
that really make these community-based strategies effective:
    The first is to build the capacity of local organizations 
that are known and trusted by the communities that are at risk 
so that they are more capable and have the skills and resources 
they need to protect their communities.
    The second piece is educating and mobilizing the 
communities themselves. They do not know their rights under 
law, they may not know how to migrate safely. So, there is an 
educational component to this. There is a psychological 
component, because people who have lived under oppression for a 
long time, in a sense, have a self-imposed imprisonment from 
long histories. Many people are actually born into slavery in 
different contexts, so you have to sort of change the mindset. 
And part of that is also developing anti-slavery committees at 
the village level so that there is a sort of neighborhood watch 
that serves that protective function.
    Add to that enhancing legal protection, as I mentioned 
before, the training of local police, and the other steps that 
I mentioned with regard to enhancing legal protections, 
increasing access to basic services. Children who are out of 
school are more likely to be trafficked. Families that do not 
have access to basic affordable healthcare will encounter a 
financial crisis. That is actually the single most prominent 
cause, that they encounter a financial crisis that drives them 
to the loan shark. Why do they go to the loan shark? Because 
there is not a legitimate source of credit that is available. 
So, increasing access to schools, healthcare, credit reduces 
the vulnerabilities that lead people into trafficking.
    And then, as this transformation takes place in 
communities, and I want to tell you, it is incredibly powerful. 
You see a community that has both a reality and a mindset of 
servitude undergoes this transformational process and begins to 
assert itself, and that is where the liberations begin to 
occur, because the community itself begins to resist the 
trafficker and the slaveholder. They come out of slavery or 
where they contact authorities, there are raids on the 
workplaces and so forth.
    Then what is important, as my friend Evelyn has been 
saying, is to provide appropriate services to the survivors so, 
as Leah and Evelyn have mentioned, they can come back and live 
lives in freedom and dignity.
    And part of that, just to add, Senator Cardin, to my 
earlier response, has to do with providing legal representation 
for the survivors, because if they get legal representation, 
then that helps us go after the trafficker, because they have 
their own lawyer or legal aide who is representing them, 
prepares them to be witnesses, and so forth.
    So, if you put this package together, and you apply it 
consistently, it works. And not only does it work consistently, 
it is not instantaneous, it may take 3 years to get a community 
from being in servitude to being free. But, it does work, and 
it can be done efficiently. Our program in India, it costs us 
about $400 a year per village. So, it takes $1200 to move us--a 
community from slavery to freedom. So, we know this can be 
done, and we know it can be done efficiently.
    Senator Coons. Thank you.
    Ms. McCain. The area that I have worked in has been 
specifically sex trafficking, so the one area that I think that 
we have not addressed as a community--and I will talk global--
as far as the United States goes and the world--is the customer 
and how we deal with the customer, and what penalties or how 
each community deals with the customer. Some communities are 
willing to deal with this topic, some are not. And it is--you 
know, it is across the board with all that. But, in my opinion, 
unless we deal with the customer head-on, on--from the sex 
trafficking side of this, we might as well be spinning our 
wheels in the dirt.
    And most importantly, I am sitting here thinking: If I had 
one wish, what would my wish be with this? It would be to 
change the language and completely take out of our vocabulary 
the word ``prostitute.'' I just do not believe that a child or 
a young woman is a prostitute who has been sold into slavery. 
So, it is those are the kind of things that will change 
attitudes with our first responders and, of course, across the 
board with that.
    Senator Coons. Well, thank you very much.
    Ms. McCain. That is my wish list.
    Senator Coons. Thank you, Cindy. Thank you, Maurice. Thank 
you, Evelyn. Thank you, Leah.
    I am reminded of the long struggle against domestic 
violence in this country, and how it took a basic change in 
mindset, in training, in prevention, in services and support. 
Whether it is a wildlife products trafficking or human 
trafficking, drugs, or weapons, there are these evil 
transnational networks, and we need to take a stronger step to 
show that this country, which was founded on liberty, and which 
had one of its most definitional moments in the abolitionist 
fight against slavery, has this fight before us again. And 
ending modern human slavery is a challenge that we can and 
should step up to together.
    Thank you, Senator Cardin.
    Senator Cardin. Thank you.
    Senator Kaine?
    Senator Kaine. Thank you, Mr. Chair.
    And thanks to all of the witnesses.
    I would like to start, if I could, Leah and Evelyn, the 
engagement of survivors is really a core piece of what policy 
should be. And I know it is a core piece of U.S. policy. And 
some of the testimony already has kind of gotten at that. But, 
if you would want to give us advice about--as we are, you know, 
crafting programs or funding, what are the things that can best 
do to engage survivors in this? What would it be? Is it more 
support of NGOs? Is it support to get legal counsel? What are 
the things that we should focus on to engage survivors in this 
battle?
    Ms. Warners. I think it is a number of things, because, as 
you said, it is--therapy would not work for her. And there is 
domestic servitude, there is sex trafficking, there is forced 
labor. So, if people that are working with agencies are 
educated on each different type of trafficking, I think that 
that would be a great thing, just, you know, what to look for, 
for each one.
    But, the education--going back to education--what to look 
for, what to stay away from. To me, that is completely 
important, because it is not something that is taught today.
    Senator Kaine. Right.
    Ms. Warners. And, like I said earlier, we were taught that 
slavery had ended, and I had no idea that I would be spending 
the next 7 years of my life enslaved to someone for the sake of 
money. So, for me, education is completely important.
    Being a sex trafficking survivor, the therapy is a vital 
role that is helping me get back into normal society.
    Senator Kaine. Thank you. Thank you.
    Evelyn.
    Ms. Chumbow. Thank you. Like Leah mentioned, there are so 
many things that can be done, but, you know, what really did 
help me get it was being part of another network, the National 
Survivor Network, just being able to have those other survivors 
that have gone through what I have gone through to understand 
me. It did not matter if it was sex or labor, but just knowing 
that we were forced into something that it was not our own 
really helped me.
    But, there are just so many things that survivors can help. 
You know, you can start by hiring survivors, giving them a job, 
because, yes, even though they have gone through other 
situation, but there is a possibility that they can be 
revictimized.
    Senator Kaine. Yeah.
    Ms. Chumbow. You know, a lot of this issue is poverty, lack 
of education. And when we do get out of the situation, we do 
not have job, we do not know where to go. Yes, NGOs are there, 
but there is not that long-term care for it. So, really helping 
us to get jobs. Or even in the country that we come from, if we 
can get jobs in that country, we will not have to go to another 
country and not be in traffic and cannot get jobs. So, the 
number-one key is providing jobs for a lot of the survivors.
    Senator Kaine. Great.
    Ms. Chumbow. Thank you.
    Senator Kaine. Thank you, to both of you.
    And now I will turn to Maurice and Cindy. Thank you guys 
for the great work that you are doing.
    On this committee, I have a kind of particular focus on 
Latin American issues, usually. And so, I would love you talk 
about, maybe, two aspects of what is going on in the Americas 
these days. One is, well, what do you think about the current 
relationship between the United States and Mexico on human 
trafficking and slavery? You know, are we cooperating in the 
way we should? We know there are problems, but are is it 
improving, are we going backwards? I would love for you to talk 
about that.
    And, second, as we have seen this uptick in the number of 
unaccompanied children coming to the United States from the 
three northern triangle countries in Central America, has that 
also had with it, you know, an uptick in slavery and human 
trafficking from those countries? And we just passed a 
budgetary allocation of $750 million into those three 
countries, and we ought to be talking about the best way to 
program those monies to do the most good. And so, I would be 
curious about your thought about the northern triangle 
countries, too.
    Mr. Middleberg. Thank you, Senator.
    One of the things I learned in my life is to say, ``I do 
not know.'' And, particularly, the issue with Mexico is not one 
that, frankly, I feel competent to address, so I will defer in 
speaking to that.
    I will say, however, with regard to--more to the Central 
American issue, that I think, in the first instance, it is very 
important that we continue to recognize that these are, in 
fact, victims of trafficking. They are running away from being 
pressed into crime by the gangs of Central America. And we were 
disappointed when this--there was the first influx--at some of 
the reaction, which seemed to treat them as kinds of criminals 
rather than as children who were fleeing organized crime. And 
what we would suggest is that it is much more about reaching 
back into the communities from which these children are fleeing 
and working with those communities and with the parents there 
to understand what are the specific vulnerabilities, what are 
the specific dynamics that are leading them to flee. So, there 
is no magic formula to answer that, but this is more about 
doing that kind of contextual research and understanding that 
dynamic, and then intervening. We have sort of a framework for 
thinking about what those might be, along the lines I suggested 
earlier in response to Senator Coons. But, then it is doing 
that kind of community mobilization so that the community can 
protect itself, with the cooperation of the local authorities, 
against the ones who are trying to traffic.
    Senator Kaine. Thank you very much.
    Ms. McCain. I guess I have the luxury of having been born 
in a border State.
    Senator Kaine. Yeah.
    Ms. McCain. And so, the issues are very--I mean, I have 
watched this my entire life. I do not think right now the 
political rhetoric is helping this at all, on either side of 
the aisle. And I am talking about the presidential races.
    Senator Kaine. Yeah.
    Ms. McCain. I just do not think that this is helpful in any 
way, shape, or form, and it really bothers me a great deal to 
see this.
    What I do know, and what I have seen firsthand, is that, 
first and foremost, I believe the United States can be very 
helpful in helping Mexico secure its southern border. We talk a 
lot about the northern border, but the southern border is the 
weak link, here.
    And more--and just exactly as what Maurice said, we do not 
have all the answers to this, but we know one thing: they are 
fleeing and they are in danger of losing their lives by not 
staying--by staying in the country. So, a broader dialogue 
with--in my opinion, with, not just the president of the 
country, but the local leaders, is where this begins, because--
and, in my opinion, involving more women in the issue, because 
I think women are really the --in Latin America, are the 
driving force on this, in terms of change. I agree with 
Maurice--so, I do not know all the answers to this. But, I do 
know we cannot continue to just slap people around and badmouth 
them, you know, for a problem that we can be helpful with 
instead.
    Senator Kaine. Thank you very much for what you are doing 
to----
    Mr. Chair, I would love, at some time--since we did just do 
the $750 million appropriation, it would be great if the 
committee, or maybe one of the subcommittees, could have a 
discussion with State and others: What is the best way to make 
that money really help solve some of these security challenges? 
I mean, I think a lot of the reason we did the investment was 
because of the crisis of the unaccompanied minors, but we want 
to make sure that it is being used in ways that will promote 
the right goal. And that might be something that the committee 
could explore at a later point.
    Senator Cardin. It is certainly within our jurisdiction. 
And, as you know, this budget provides an additional billion 
dollars in that regard. So, it is a continuing commitment by 
the taxpayers in the jurisdiction of this committee.
    Senator Kaine. Thank you so much.
    Senator Cardin. Senator Menendez.
    Senator Menendez. Thank you, Mr. Chairman.
    And let me thank an incredibly impressive panel. And I want 
to particularly thank Leah and Evelyn, because it is courageous 
to tell these stories in public, on the record. And it is 
extraordinarily powerful. And you are helping the lives of 
other individuals. Because when we talk about issues here, 
sometimes we talk about it in a way that we do not get the 
human face to the challenges that we are facing, and--in this 
case, modern-day slavery; in other cases, about education or 
income or whatnot. But--so, I want to thank you both, because I 
think it is incredibly powerful, and I applaud you for doing 
it.
    And, to Mrs. McCain, your work at the McCain Institute is 
just fantastic. And I appreciate your insights and your 
commitment.
    And, to Mr. Middleberg, a fantastic organization, what you 
are doing in is changing lives.
    When I worked with Senator Corker originally on this, and 
certainly felt his passion and believe in it myself, and then 
Senator Cardin, I think about the committee's jurisdiction. 
And, while I am pleased to hear of many of the domestic things 
we need to do, including realizing that it is not just about 
issues abroad, in terms of modern-day slavery, that 
domestically we have to face up to our moral responsibility to 
meet this challenge. But, in terms of the committee's 
jurisdiction, it is Foreign Relations, and, as part of that, I 
would like to try to pick your brains. I have gotten the sense 
of the conversation before I got to walk in because I was at 
another meeting. But, how do we use the tools of foreign 
diplomacy in a way that can more powerfully direct the 
attention of other countries to the issue of modern-day 
slavery?
    And, for example, before I hear your answers, I appreciate 
Senator Cardin working to make sure that the TIP Report, which 
I think is one of the most powerful tools we have to cast not 
only a spotlight, but to have countries meet their 
responsibilities, needs to be inviolate. And I am concerned 
that the last one was not, that considerations--and I 
understand; I have been on either the House or Senate Foreign 
Relations Committee for 24 years, so I understand the totality 
of issues that we face in relationships in the world. But, you 
cannot, ultimately, mitigate the challenges in a country on 
modern-day human trafficking and slavery because other things 
are far more important. You can maybe meet them in tandem, but 
you should not, ultimately, mitigate them. And I am concerned 
when I see Malaysia, for example, that there is no way that 
anybody is going to convince me that they deserve to be 
upgraded. Now, maybe that was a result of my amendment that 
passed in the Senate Finance Committee that includes, in the 
question of trade promotion and TPP, you know, having a 
prohibition on dealing with countries who are in Tier 3 to get 
access to fast track and trade. And I would like to hear 
whether that or--elements of that--whether using our trade 
agenda, particularly with countries that rate among the worst 
in the world, in terms of human trafficking, is one tool of 
foreign diplomacy that we should use.
    So, I would like to get a sense from you, What can we do in 
our arsenal of foreign diplomacy tools to help your work and to 
our joint commitment to end modern-day slavery? I think there 
are more powerful efforts to use, the use of our aid and our 
trade, as well as international opinion, which the TIP Report 
certainly is a part of, to achieve that, but you are out there 
doing this, so I would like to hear from you.
    Mr. Middleberg. Thank you, Senator Menendez. And thank you 
for being so deeply engaged on this issue, for which we are 
very grateful.
    Let me suggest sort of an agenda of tools or methods, one 
of which you have shown great leadership on. I think it is very 
important that we leverage access to U.S. markets. It is simply 
unconscionable that we would allow slave-made goods into the 
United States of America. I cannot imagine how anybody could 
possibly countenance that. And it seems to me, in part, that 
involves dialogue with our leading businesses so that they 
really begin to pay attention to their supply chains. You know, 
the statement is made that, ``Well, the supply chains are 
enormously complex.'' I happened to listen to somebody who once 
was chief of procurement for ExxonMobil, and she said, ``We 
knew where every screw and every flange came from, because, if 
we did not, and the oil well blew up, that was going to be a 
serious problem and cost us money.'' So, I think part of this 
is, What are the incentives that are on the table, in terms of 
whether or not the businesses feel that they really need to pay 
attention to their supply chain? So, I think really thinking 
carefully about leveraging access to U.S. markets, both for the 
producers and for the consumers on this end, is potentially a 
very powerful tool.
    Second, the role that we play with regard to the array of 
international institutions, particularly the international 
financial institutions. Those are very important sources of 
financing for many countries. And that can be, if that was 
systematically integrated into the dialogue between the 
international financial institution and the country that is 
receiving the money, we certainly have done so with other 
issues: the environment, women's rights, and so forth. I cannot 
imagine why we would not begin to include slavery as one of 
those conditionalities that we really think about, in terms of 
the dialogue, in terms of our being on boards or being at 
leadership roles in international financial institutions. I 
mean, ask the president of the World Bank, ``What is your 
stance on slavery? What is the World Bank actually doing on 
this? You are the largest development bank in the world, by 
far.'' That is probably a useful conversation.
    The consistency of high-level diplomacy. You know, we 
talked about it before. When the President is talking to a 
foreign leader where there is an issue, is slavery on the 
agenda? Because the fact that it is not on the agenda is also a 
signal that we do not care. So, it needs to be consistently on 
the agenda.
    I would ask this committee to pay careful attention to the 
actual implementation of the USAID CTIP policy. There is a 
policy on paper. Is it actually being implemented? Are they 
reporting on what they are actually doing in that regard? Is 
the TIP office--is it in a structure, in a culture, in an 
environment where it is allowed to do its job and so the 
products it produces are unimpeachable?
    So, I think there are an array. People do pay attention to 
that TIP Report. You know, that is certainly been our 
experience. So, being sure that that is not swayed by issues 
other than whether or not the country is making progress on 
slavery is really critical.
    So, those are some things I would suggest, sir.
    Senator Menendez. Ms. McCain.
    Ms. McCain. I completely agree with what Mr. Middleberg 
just said, because what has happened in some cases is, it has 
made the TIP Report meaningless especially with what happened 
most recently.
    In my opinion, of course putting it on the discussion table 
at every high-level meeting, at everything you all do, because 
we rely on you to carry the U.S. message around the world--I 
would love to be a fly on the wall, Senator Cardin, of the next 
meeting you have talking to a world leader. That would just be 
great entertainment for me. I would love it. [Laughter.]
    Ms. McCain. But, my point being, those kinds of very frank 
discussions are necessary, because all too often the people 
that are meeting with you are also making money off these 
slaves. So, it is--we have to be tough on this, because we are 
talking about children and the lives of human beings. And 
unless we are--it is like good parenting--unless we are 
consistent and firm, we are not going to get anywhere. And that 
starts at home.
    Senator Menendez. Well, I appreciate your answers. And I 
think they are all important. I very much am interested in the 
international financial institutions. For example, we have 
corruption initiatives as part of it. There is not any reason 
this could not be included. So, I will raise those with some of 
the leaders. And the supply-chain question, I think, is also 
very important. If you can know everything you need to know to 
mitigate any tort claim, you should be able to do everything to 
mitigate any claim on human trafficking.
    So, thank you very much.
    Senator Cardin. I want you, more than the fly on the wall, 
I want you in the room with me as we are talking. [Laughter.]
    Senator Cardin. It would help a great deal.
    Ms. McCain. I can be tough, too, so I am with you. 
[Laughter.]
    Senator Cardin. Senator Markey.
    And let me also say, about Senator Menendez, I really want 
to thank him for his leadership on this issue. He has brought 
forward legislative initiatives, he has been a incredible 
leader for many, many years on this issue. His standing up for 
the TIP Report during some very difficult moments, where people 
tried to distract the discussion--thank you for staying strong 
on this issue.
    Senator Menendez. Thank you, Mr. Chairman. Maybe we can 
have Mrs. McCain be an honorary senior staff member of the 
committee so she can sit in on these discussions. [Laughter.]
    Ms. McCain. I like to start fights. [Laughter.]
    Senator Cardin. Senator Markey.
    Senator Markey. Thank you, Mr. Chairman, very, very much.
    And thank you, Mrs. McCain, and thank you, Mr. Middleberg, 
for your leadership on these issues, for everything that you 
are doing.
    And thank you, to the two victims who are here. Your 
experiences are harrowing to hear about. It takes a tremendous 
amount of courage for you to then turn that into something 
which is positive, that is coming here to testify, giving 
leadership, giving voice to these issues. And so, we appreciate 
the courage it takes for you. Many cannot do what you do. You 
have that extra ingredient of courage to come before us. But, 
you should know that we are listening to you on this committee, 
that it is worth it for you to step out, and it is worth it for 
you to encourage other people to step out, because the more 
that that happens is the more that this committee and other 
members of the Senate can help you to have your cause be given 
a voice that is more powerful than yours. But, you are 
inspiring all of us today by your presence.
    And so, here is what I would like to do, if I could. I 
would like to give each of you kind of a minute and a half to 
just summarize, for a minute and a half, each one of the 
witnesses, What is the one and a half minutes that you want us 
to remember as a committee as we are dealing with this issue so 
that we will not forget the charge which you are giving us here 
today?
    Can I start with you, Leah, and ask for you to tell us what 
that message would be?
    Ms. Warners. Absolutely.
    Ms. Warners. Yes. One and a half minutes?
    Senator Markey. One and a half. [Laughter.]
    Ms. Warners. Okay. All right.
    So, for me, what I would like for you guys to take with you 
from this, my experience, from sex trafficking to labor, is 
education prevention, and then the aftercare for the victim 
after everything is said and done, because it is so easy to 
prosecute the trafficker and then forget about the victim. And 
that happens more oftentimes than not. So, to have an 
organization that really puts emphasis on the aftercare as well 
as the education and the prosecution is huge. There is just so 
much to be done after a victim is brought back into society. It 
goes from their own education, it goes to healthcare, it goes 
to, in my case and a few others, therapy. So, for me, to let 
you know about education prevention and aftercare, and that is 
huge. And that did not take a minute and a half, so I will let 
Ms. Chumbow speak. [Laughter.]
    Senator Markey. But, it was great. Thank you.
    Ms. Warners. Thanks.
    Ms. Chumbow. I will try, Leah. [Laughter.]
    Ms. Chumbow. Thank you very much, Senator. And I do agree 
with what Leah said. But, for me, really the message that I 
want you all to take back to think about is, you are dealing 
with humans. These are human beings. It could be your brother, 
your sister, your child. So, whatever we are advocating for 
here, you have to think about, What if it is your family 
member? We really want this law to really be implemented and 
help all these people to get out of the situation. And, most 
importantly, for people to understand that traffic--human 
trafficking is not only sex. It is everything. It is all. And 
if we can just work together as one, and just know that we want 
to save of life of human beings, you know. Being a victim at 
such a young age, I have trauma. But, think about that. It can 
be your child. It can be your sister. So, just focus on that.
    Thank you.
    Senator Markey. Thank you.
    And again, thank the two of you. You are a force in nature 
here in the committee today. It is so powerful to have you 
here.
    Mr. Middleberg.
    Mr. Middleberg. Thank you, Senator.
    Here is the message I would like to leave with the 
committee, if I might. I am here, actually, with my wife, Fran. 
Fran is a direct descendant of the Lovejoy family. And the 
Lovejoys were very prominent abolitionists in the pre-Civil War 
era. Owen Lovejoy was a Member of Congress, in fact, and a 
fierce advocate for the abolition of slavery.
    My own grandfather, Reuben Robert Middleberg, survived 
Auschwitz as slave labor. He was a jeweler and a watchmaker by 
profession. And the reason he was kept alive was to fix what 
the Nazis were stealing from the Jews in the camp.
    And I think that my grandfather and Fran's ancestors would 
be shocked that we are here before this committee today still 
talking about slavery, and it still exists. And what I would 
ask of this committee, of the Congress, of the next President, 
is that we should not allow our grandchildren to be having this 
same conversation. We need to act with a desperate sense of 
urgency so that, when our grandchildren talk about slavery, 
they are going to talk about it as an historic relic, and they 
will look back on us with admiration and say we were the 
generation that brought it to an end.
    Senator Markey. Thank you so much, Mr. Middleberg.
    Mrs. McCain.
    Ms. McCain. First of all, thank you very much for having me 
today. This issue is extremely important to all of us that are 
sitting here today, but it is extremely important to a 
generation of children that we may lose to this.
    As Mr. Middleberg so eloquently said, the United States is 
the beacon. We are the beacon around the world. And if I could 
instill anything in all of you, continue that. But, not only 
continue the message that we have, but also continue holding 
the United States accountable for this. We cannot very well run 
around the world and say, ``You need to stop doing this,'' when 
we are not doing it ourselves. So, I so appreciate the work 
that all of you do. And, more importantly, I appreciate your 
voice around the world. So, every time you go, talk about this 
issue. Every time you go. And I know you do. But, this issue is 
too important not to talk about.
    Senator Markey. Thank you.
    And again, we thank each of you for your contribution to 
this effort.
    And thank you, Mrs. McCain, because you add the spotlight 
to the issue that it otherwise would never receive.
    And what State was Congressman Lovejoy from?
    Mr. Middleberg. He was from Illinois, sir.
    Senator Markey. Illinois. Interesting.
    But, the reality is that we had to fight a civil war in 
order to eradicate slavery. That is how hard it was. And we had 
to fight World War II to stop the Nazis from exterminating the 
Jews and the gypsies and all the others. And that is not so 
long ago. So, we understand how deeply ingrained it is in the 
cultures of many countries. And the United States once again 
has to be the leader, as we were in our own country and as we 
were during World War II, to be the beacon of hope. And by your 
being here today, you remind us that that is our role.
    Thank you so much.
    Senator Cardin. Well, let me just join Senator Markey. I 
can assure you that this hearing is going to have an impact on 
action in this committee. Senator Corker and I are dedicated to 
changing the landscape here, and recognize that we have to take 
it to the next level. We are proud of what we have been able to 
do, U.S. leadership. But, we want to take it to the next level. 
And I know that Senator Corker has expressed some interest in 
some legislation and appropriations. We have already, Senator 
Kaine's point about using the appropriation process, we are 
going to do everything in our power to exert U.S. leadership 
and to have our leaders be bolder on this issue on their 
international engagements.
    The committee record will remain open until noon on Friday 
for questions for the record. If there are questions asked, we 
would ask that you respond promptly to questions that are made 
by members of our committee.
    And, with that, the hearing will stand adjourned.
    Thank you all again.
    [Whereupon, at 11:46 a.m., the hearing was adjourned.]


                              ----------                              


              Additional Material Submitted for the Record

       Statement for the Record Submitted by Senator Marco Rubio

    I would like to thank Chairman Corker and Ranking Member Cardin for 
holding this hearing on human trafficking. I would also like to thank 
the witnesses for their testimony today and their dedication to this 
important issue.
    Every day, innocent people are being trafficked in Florida, across 
the United States, and around the world. It is hard to imagine slavery 
like this still exists today, but it does. Fortunately, greater public 
awareness and improved law-enforcement efforts have helped combat the 
problem, saved countless victims, and brought human traffickers to 
justice. But there is much more work to be done, at home and abroad.
    One of the best tools the U.S. government has to combat trafficking 
is its annual Trafficking In Persons Report (TIP Report). For over 
fifteen years, the report has encouraged foreign governments to tackle 
human trafficking, if for no other reason than to avoid being named and 
shamed by the U.S. government. However, the 2015 TIP Report was marred 
by controversy that it was manipulated by other political 
considerations. The most glaring example is the politically driven 
elevation of Cuba from the ``Tier 3'' category to the ``Tier 2 Watch 
List''. Since the State Department began evaluating Cuba in 2003, it 
has been placed on Tier 3 every year. Over the past year, Cuba has done 
almost nothing to combat human trafficking. In fact, while the 2015 
trafficking report claims there were improvements in certain areas, 
Cuba still has not even bothered to create a single law that identifies 
labor trafficking as a crime.
    It is important that the TIP report remain a true reflection of the 
trafficking situation on the ground and that a country's rating not be 
determined by political considerations but by the country's true record 
on this issue. I will continue to work with the State Department to 
address this issue.
    Additionally, the United States needs to enforce its own 
trafficking laws. In 2008, Congress passed the Trafficking Victims 
Protection Reauthorization Act, in part to address diplomatic 
trafficking. In that statute, Congress provided a significant tool to 
combat these crimes. Section 203(a)(2) of the Act states that the 
Secretary of State ``shall suspend'' the issuance of A-3 or G-5 visas 
to applicants ``seeking to work for officials of a diplomatic mission 
or an international organization, if the Secretary determines that 
there is credible evidence that one or more employees'' have abused or 
exploited one or more non-immigrants holding an A-3 or G-5 visa, where 
the diplomatic mission or international organization tolerated such 
actions.
    It is inexplicable to me that in the eight years since passage of 
this law, not a single country or mission has been suspended from the 
A-3/G-5 visa program. This failure to enforce the law is particularly 
troubling in light of multiple cases of diplomatic trafficking of 
domestic workers into the United States. No American should rest easy 
knowing that modern-day slavery exists in the form of human 
trafficking. With this hearing today, the United States Senate should 
renew our commitment to fighting this rampant human-rights violation 
everywhere that it exists.


                               __________



                                  <all>
</pre></body></html>
